<html>
<title> - BUREAU OF INDIAN EDUCATION: EXAMINING ORGANIZATIONAL CHALLENGES IN TRANSFORMING EDUCATIONAL OPPORTUNITIES FOR INDIAN CHILDREN</title>
<body><pre>[Senate Hearing 114-170]
[From the U.S. Government Publishing Office]












                                                        S. Hrg. 114-170

                      BUREAU OF INDIAN EDUCATION:
                  EXAMINING ORGANIZATIONAL CHALLENGES
                      IN TRANSFORMING EDUCATIONAL
                   OPPORTUNITIES FOR INDIAN CHILDREN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                  

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-435 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





























                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 13, 2015.....................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Daines......................................    44
Statement of Senator Franken.....................................     3
Statement of Senator Heitkamp....................................    46
Statement of Senator Hoeven......................................    41
Statement of Senator Tester......................................     2
Statement of Senator Udall.......................................    42

                               Witnesses

Emrey-Arras, Melissa, Director, Education, Workforce and Income 
  Security Issues, U.S. Government Accountability Office.........     9
    Prepared statement...........................................    11
Jones, Hon. Carri, Chairwoman, Leech Lake Band of Ojibwe.........    32
    Prepared statement...........................................    33
Lewis, Tommy, Superintendent of Schools, Department of Dine 
  Education, Navajo Nation.......................................    36
    Prepared statement...........................................    37
Roessel, Charles ``Monty'', Director, Bureau of Indian Education, 
  Department of the Interior.....................................     4
    Prepared statement...........................................     6

                                Appendix

Bordeaux, Dr. Roger, Executive Director, Association of Community 
  Tribal Schools, Inc., letter...................................    65
National Indian Education Association, prepared statement........    57
Response to written questions submitted to Charles ``Monty'' 
  Roessel by:
    Hon. Mike Crapo..............................................    69
    Hon. Al Franken..............................................    75
    Hon. Tom Udall...............................................    71
Steele, John Yellow Bird, President, Oglala Sioux Tribe, prepared 
  statement......................................................    55
Vizenor, Hon. Erma J., Chairwoman, White Earth Band of Ojibwe, 
  prepared statement.............................................    60

 
                 BUREAU OF INDIAN EDUCATION: EXAMINING
                      ORGANIZATIONAL CHALLENGES IN
                        TRANSFORMING EDUCATIONAL
                   OPPORTUNITIES FOR INDIAN CHILDREN

                              ----------                              


                        WEDNESDAY, MAY 13, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Today, the Committee will examine the organizational 
challenges that continue to plague the Bureau of Indian 
Education.
    The Federal Government has an important responsibility in 
educating Indian children. In the past Congresses, this 
Committee has held several hearings on Indian education. One 
troubling finding throughout these hearings is the lack of 
consistent successful achievements at the Bureau of Indian 
Education schools.
    Indian children are some of the most at-risk children in 
the Nation. The school conditions many of them face on a daily 
basis are deplorable. For example, according to the Government 
Accountability Office, some Bureau of Indian Education schools 
fail to meet basic fire and health standards.
    Nearly two years ago, on May 15, 2013, Secretary Jewell 
testified before this Committee that the state of Indian 
education was an embarrassment. The Government Accountability 
Office has issued numerous reports detailing systemic problems 
with the organization at the Bureau of Indian Education and the 
Bureau of Indian Affairs. These problems prolong efforts to 
repair schools and educate Indian children.
    According to the GAO, the recommendations in the reports 
have not been fully implemented. These agencies must work 
together to find ways to help our Indian children.
    I look forward to hearing what progress the Department has 
made in addressing these issues and improving student 
achievement.
    Before we hear from our witnesses, I would like to turn to 
Senator Tester for his opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Well, thank you, Mr. Chairman, and thank 
you for holding this hearing.
    I also, before starting my prepared statement, I want to 
recognize Carol Lankford as Vice Chair of the Salish and 
Kootenai Tribes here. Carol, are you here? There she is, right 
over there. It is great to have you here, Carol. Thank you for 
your interest in education in Indian Country.
    I would also say, Mr. Chairman, since your daughter is 
here, I hope you hold with the longstanding tradition of having 
her come up and explain to us what she interprets as the 
meaning of life.
    [Laughter.]
    Senator Tester. Look, we all know here that education is 
the foundation for everybody, and it is more important, I 
believe, as far as the future for Indian Country because of the 
poverty that is in Indian Country. I am glad that this 
Committee continues to privatize this issue of education. It 
was almost exactly a year ago that we held an oversight hearing 
on the Bureau of Indian Education, so I am looking forward to 
hearing what progress has been made by the Department and 
stakeholders to improve the BIE.
    One of the main themes we continue to hear from Indian 
country is that something needs to be done to improve school 
facilities. I couldn't agree more. Last week, I and several 
members of this Committee sent a letter to Secretary Jewell 
requesting that the Department use a fair and transparent 
process in developing new school construction priority lists. 
In that letter, we also encouraged the Department to take a 
look at what the Defense Department is doing to improve its 
school facilities, since they operate the only other Federal 
school system.
    I am aware that this is comparing apples to oranges, but we 
simply cannot continue to allow this double standard when it 
comes to providing education for our Native youth.
    By working with the Office of Management and Budget and the 
Congressional Appropriations Committees, the Department can 
make a similar plan to build on the strategic best practices 
learned by the Defense Department's recent construction 
improvement efforts.
    At the same time, we need to be having a serious 
conversation about what is reasonable with such an underfunded 
BIE budget. Budgets are a direct demonstration of our 
priorities, and we can't continue to let our Native students 
lose out on the current state of priorities in this Congress.
    Furthermore, I don't think we can expect the Department to 
be able to meet the needs of infrastructure in Indian Country 
if we don't appropriate them adequate monies to get that job 
done.
    In summary, we should be building a few less Apache 
helicopters and a few more Apache schools. Improving the 
learning environment is only one part of the solution. We also 
need to make smart targeted investments in other areas directly 
related to the education of Native children, including 
increasing our investments in per student funding.
    In my home State of Montana, there are two BIE schools, one 
BIE dormitory. One of those BIE schools is the tribally-
operated Two Eagle River School in Pablo, Montana. The Tribe 
reported to me that public schools on the reservation receive 
almost 6,000 more dollars per Native student than do BIE 
schools on a reservation. That disparity must be rectified.
    In addition to the per student imbalance, I often hear 
stories that schools are having to make tough choices between 
keeping the heat on or buying materials for the students, or, 
even worse, having to supplement their classroom budgets with 
money from their own pockets. School administrators and 
teachers shouldn't have to make these kind of tough choices; it 
is unacceptable and we need to do better if we expect a better 
outcome for our Native children.
    I think it is clear that the educational realities of 
Native students are finally starting to play a part in our 
national conversation about schools, and that is why I am glad 
we are keeping the focus on this topic here in this Committee 
today.
    I am pleased with the Administration's increased focus on 
issues affecting Native youth and the cross-agency 
collaboration that is happening. As these partnerships and 
initiatives continue to progress, I plan to help in any way I 
can, and I want to thank everyone on the ground who works so 
very hard every day to improve the lives of Native children 
throughout Indian country.
    I look forward to hearing each one of the folks here at the 
panel testimony today. Thank you for being here and we look 
forward to your words of wisdom.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Tester.
    I would point out that also joining us are a number of 
students from Wyoming from St. Stephens School in St. Stephens, 
Wyoming, who are here as part of the Close Up Program. They 
were here in this room earlier this morning to meet with 
Senator Enzi and me. They just got back from across the way, 
having met with our congressman, Cynthia Lummis, and they are 
paying very close attention.
    Could I ask you all to stand up and make sure that you feel 
welcome here in the Committee? Thank you. Thanks so much for 
joining us today. Thank you.
    [Applause.]
    The Chairman. Do any other members have opening statements?
    I know also that, Senator Franken, you have one of the 
panelists at some point you are going to want to introduce as 
well. You could do it now or do it later, depending on your 
time.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. I will do it right now, Mr. Chairman. 
Thank you.
    I am very pleased to be able to introduce Chairwoman Carri 
Jones, who hails from my State of Minnesota. She brings very 
valuable experience to this hearing as a witness. Ms. Jones was 
elected Chairwoman of the Leech Lake Band of the Ojibwe in 
2012, making her the first woman and the youngest person ever 
to hold the position of tribal chair on the Leech Lake Tribal 
Council. The Tribal Council is the elected body of government 
responsible for managing the affairs of the Ojibwe at Leech 
Lake, which is a sovereign territory in north central 
Minnesota, just north of Bemidji.
    Previously, Chairwoman Jones served as a controller of 
finance for the Leech Lake Band of Ojibwe for three years. 
Chairwoman Jones is a knowledgeable champion for Native 
American youth and a tireless advocate for the students, 
educators, and families of the Bug-O-Nay-Ge-Shig School, which 
has been sort of a project of mine.
    When Senator Tester, the ranking member, talked about 
woeful levels of funding in Indian Country on education, the 
Leech Lake School, the Bug-O-Nay-Ge-Shig School is an example 
of a school I visited a few weeks ago. The principal and 
teachers and everybody there is great, but the physical plant 
is a disgrace and needs to be replaced, and I have been 
fighting for that since early 2010.
    But I am very pleased that Chairwoman Jones is a witness 
for us today, and we will benefit from her experience and her 
insight.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Anyone else have an opening statement?
    If not, we will hear from four witnesses today: Dr. Charles 
``Monty'' Roessel, the Director of the Bureau of Indian 
Education; Ms. Melissa Emrey-Arras, Director of the Government 
Accountability Office; the Honorable Carri Jones, who was just 
introduced by Senator Franken; and Dr. Tommy Lewis, who is the 
Superintendent of Navajo Nation Department of Dine Education 
from Arizona.
    Thank you and welcome. I want to remind the witnesses that 
your full written testimony will be made a part of the official 
hearing record. Please try to keep your statements to five 
minutes so that we may have adequate time for questions.
    I look forward to hearing the testimony from each of you, 
beginning with Dr. Roessel. Thank you. Please proceed.

       STATEMENT OF CHARLES ``MONTY'' ROESSEL, DIRECTOR, 
         BUREAU OF INDIAN EDUCATION, DEPARTMENT OF THE 
                            INTERIOR

    Dr. Roessel. Good afternoon, Chairman Barrasso, Vice 
Chairman Tester, and members of the Committee. Thank you for 
this opportunity to testify on the Bureau of Indian Education.
    I have been the director for over a year now. I come here 
with a renewed sense of confidence that we will get the job 
done. The success of BIE is contingent on the continued 
engagement of Tribes, the Administration, Congress, and 
advocates for American Indian Students.
    The blueprint for reform and the realignment needed to 
implement it is not BIE's plan or my plan, but is the 
restructuring that embeds the voices of over 400 American 
Indian stakeholders. Every new organizational box is based on 
the ideas and contributions of education and Tribal leaders, 
parents and teachers, administrators and students. These are 
not just boxes on an org chart, but ideas from the Mississippi 
Band of Choctaw, the Hopi, the Navajo, the Yankton-Sioux, the 
Shoshone-Bannock, and many of the 64 Tribes that have BIE 
schools.
    The blueprint for reform will look different for each 
Tribe. The types of services provides includes those that were 
requested from Tribes, as well as proven strategies in school 
improvement. Here is what it will look like.
    In New Mexico, the Isleta Elementary School, as a newly 
formed tribally-controlled school, they will receive specific 
tools to safeguard internal controls to ensure clean audits, 
training for school board members in effective governance. They 
also can apply for the new $2 million Tribal Education 
Department grant to develop an educational code.
    In Wyoming, the St. Stephens Indian School, the students 
who are here today, they will receive school improvement 
support from the Rapid City Education Resource Center. Our 
school solution teams will work with their principals and 
teachers to analyze student academic data to find the strengths 
and weaknesses and target professional development for teachers 
to meet their students' specific needs.
    In Minnesota's Bug-O-Nay-Ge-Shig School, they will receive 
additional support to continue their immersion program. From a 
recently developed Native language framework, they will receive 
support in better utilizing their portion of BIE's $24 million 
to teach Native languages. In addition, BIE is targeting $3 
million to be used in Native language program development with 
an eye towards fluency.
    The Department of the Interior understands it has a trust 
and treaty responsibility to educate American Indian students. 
As Tribes continue down the path of self-determination in 
education, the BIE must provide the support needed to Tribes so 
they can exercise their sovereignty in education.
    One such plan that I feel and believe holds great promise 
is the Sovereignty in Indian Education Initiative. It allows 
for Tribes with three or more BIE-funded schools to examine the 
functions of a successful school and scale best practices. For 
example, North Dakota's Standing Rock Sioux Tribe established 
the Exploring Tribal Sovereignty in Indian Education Committee 
to understand how to measure student academic achievement from 
a different lens, a tribal lens. Measures that are driven by 
the Tribe's own valuation system that can be integrated into 
their three schools.
    When I was the Associate Deputy Director for Navajo 
Schools, I instituted a district model. I realigned functions 
and clarified roles, much like any school district within this 
Country. I sought to unify professional development for 
teachers. We developed processes and protocols for 
instructional rounds that focused on improvement, not 
punishment.
    What were the results? For our Navajo BIE operated schools, 
we went from 29 percent of the schools making AYP in 2012 to 
54.8 percent now making AYP. These lessons learned are helping 
to drive our reform efforts.
    An organization that has known only failure will always 
look for the perfect plan. The search for such a plan becomes 
an excuse for inaction. The blueprint for reform is a plan 
worthy of action. It centers on the students and support needed 
to improve academic outcomes; it focuses on partnerships with 
Tribes in developing tribal education systems that reflect 
their expectations for academic success; and it has the support 
of the Administration, as evidenced by the President's 2016 
budget with a request of an additional $145 million for BIE. It 
also has the interest of Congress, as evidenced by the many 
congressional visits to our BIE schools and seeing firsthand 
the challenges facing our teachers, our principals, our Tribes, 
and, most importantly, our students.
    We know what the problems are. We have analyzed the data 
and we have read the reports. We cannot be paralyzed with 
inaction. Our Indian Nations deserve better. Our Indian 
students deserve better.
    I am happy to answer any questions.
    [The prepared statement of Mr. Roessel follows:]

 Prepared Statement of Charles ``Monty'' Roessel, Director, Bureau of 
              Indian Education, Department of the Interior
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and Members 
of the Committee. Thank you for the invitation to appear today. My name 
is Charles ``Monty'' Roessel, and I am the Director of the Bureau of 
Indian Education (BIE) at the Department of the Interior (Department). 
I appreciate the opportunity to testify on behalf of the Department 
before this Committee on the topic of the ``Bureau of Indian Education: 
``Examining Organizational Challenges in Transforming Educational 
Opportunities for Indian Children.''
    I am here to provide the BIE's vision for American Indian education 
in BIE-funded schools. The BIE has recently initiated several actions 
to improve student outcomes, including building the capacity of tribal 
nations to operate their own schools, improving the quality of 
instruction in BIE-funded schools and restructuring Indian Affairs in 
the Department to streamline the BIE bureaucracy and improve day-to-day 
operations.
The Bureau of Indian Education
    The BIE supports education programs and residential facilities for 
Indian students from federally recognized tribes at 183 elementary and 
secondary schools and dormitories. The BIE serves approximately eight 
percent of Native youth, with the majority of Native youth attending 
public schools. Currently, the BIE directly operates 57 schools and 
dormitories and 64 tribes operate the remaining 126 schools and 
dormitories through grants or contracts with BIE. During the 2013-2014 
school year, BIE-funded schools served approximately 48,000 individual 
K-12 American Indian students and residential boarders. Approximately 
3,800 teachers, professional staff, principals, and school 
administrators work within the 57 BIE-operated schools. In addition, 
approximately twice that number work within the 126 tribally-operated 
schools.
    The BIE has the responsibilities of a state educational agency for 
purposes of administering Federal grant programs for education. BIE 
responsibilities include providing instruction that is aligned to the 
academic standards set forth in regulations; working with the U.S. 
Department of Education (ED) to administer the formula grant funds ED 
provides to BIE under the Elementary and Secondary Education Act of 
1965 (ESEA) and under Title VII, subtitle B, of the McKinney-Vento 
Homeless Assistance Act for the schools operated and funded by BIE; and 
providing oversight and accountability for school and student success. 
BIE is also responsible for ensuring compliance with ESEA, currently 
referred to as the No Child Left Behind Act, the Individuals with 
Disabilities Education Act, and other Federal civil rights laws for the 
schools operated and funded by BIE.
    The BIE faces unique and urgent challenges in providing a high-
quality education to Indian students attending the schools it funds. 
These challenges include difficulty in attracting effective teachers to 
BIE schools (which are most often in areas of concentrated poverty and 
located in remote locations where there is often insufficient housing 
and services); difficulty in adopting research-based reforms at all BIE 
schools; lack of access for BIE and BIE schools to certain programs 
that are designed to build SEA and LEA capacity; the need for 
organizational and budgetary restructuring to meet the needs of the 
current school system; and a lack of consistent leadership--having had 
33 directors since 1979.
A New Vision for the BIE
    The Administration is fully committed to providing a high-quality 
education to Indian students attending the schools BIE operates and 
funds to ensure that all BIE students are ready for college and 
careers. The Administration undertook a rigorous assessment of BIE and 
thereafter conducted extensive tribal consultations, consistent with 
the Department's tribal consultation policy, to develop the BIE 
Blueprint for Reform, which was released in 2014. The Blueprint focuses 
on the following five pillars of reform:

  <bullet> Self-Determination for Tribal Nations--Building the capacity 
        of tribes to operate high-performing schools and shape what 
        students are learning about their tribes, language, and culture 
        in schools.

  <bullet> Highly Effective Teachers and Principals--Identifying, 
        recruiting, retaining and empowering diverse, highly effective 
        teachers and principals to maximize the highest achievement for 
        every student in all BIE-funded schools.

  <bullet> Agile Organizational Environment--Developing a responsive 
        organization that provides the resources, direction and 
        services to tribes so tribes can help their students attain 
        high-levels of student achievement.

  <bullet> Budget that Supports Capacity Building Mission--Developing a 
        budget that is aligned with and supports BIE's new mission of 
        tribal capacity building and scaling up best practices.

  <bullet> Comprehensive Supports through Partnerships--Fostering 
        parental, community, and organizational partnerships to provide 
        the emotional and social supports that BIE students need in 
        order to be ready to learn.

    The Blueprint sets out a vision for a 21st century education system 
for BIE operated and funded schools, grounded in both high academic 
standards and tribal values and traditions.
Implementation of BIE Blueprint for Reform Recommendations
    The Department, BIE, and Congress have taken action on several of 
the Blueprint's key recommendations, including:

  <bullet> Secretarial Order 3334. The order promotes tribal control of 
        BIE-funded schools and ensures that tribally-controlled schools 
        receive the resources and support they need in order to be 
        successful. The goals of the Secretarial Order are to:

          --Reduce reporting burdens on schools and make the reporting 
        structure more efficient and effective;
          --Improve accountability of BIE;
          --Provide services more effectively to BIE-funded schools;
          --Address concerns raised by tribal leaders and other BIE 
        stakeholders; and
          --Facilitate the transfer of best practices amongst schools.

  <bullet> Sovereignty in Indian Education (SIE) Awards. These awards 
        to tribes create tribally-managed school systems.

          --Six tribes with three or more BIE-funded schools each 
        received awards of $200,000 to research, assess and develop an 
        implementation plan to establish a tribally-managed school 
        system.

          --Tribes receiving an SIE award will conduct a comprehensive 
        analysis in four functional areas: Finance, Academics, 
        Governance, and Human Resources.

          --Tribes receiving SIE awards will work together and share 
        best practices and challenges.

  <bullet> Tribal Education Department (TED) grants. As authorized by 
        section 1140 of the Education Amendments of 1978 (25 U.S.C. 
        2020), the BIE will award a total of $2 million to support 
        tribes in building capacity to plan and coordinate all 
        educational programs of the tribe. These projects will cover 
        areas such as the development of tribal educational codes or 
        tribal administrative support. This funding will be used to 
        help tribes to create tribally-managed school systems.

  <bullet> FY 2015 Enacted Budget. Congress has supported the 
        recommendations of the Blueprint by providing additional 
        funding:

          --Includes an additional $19.2 million over FY 2014 funding 
        levels to complete the school replacement construction project 
        started in FY 2014 and cover design costs for the final two 
        schools on the 2004 School Replacement Priority list.

          --Includes an increase of $14.1 million for Tribal Grant 
        Support Costs for tribally-controlled schools which increased 
        the percentage administrative cost grants paid from 68 percent 
        to 87 percent, and an increase of $1.7 million for Science 
        Post-Graduate Scholarships.

  <bullet> FY 2016 President's Budget Request. The President's budget 
        proposes a $1.0 billion investment in Indian education at BIE-
        funded schools grounded in high academic standards and tribal 
        values and traditions, with increases totaling nearly $140 
        million for BIE educational programs, operations, and 
        facilities construction.

          --Includes increases of $80 million for programs that improve 
        opportunities and outcomes in the classroom:

  <bullet> $10 million to promote tribal control of BIE-funded school 
        curriculum including native language and cultural programs;

  <bullet> $20 million for school facilities operations and 
        maintenance;

  <bullet> $12 million to fund 100 percent of administrative costs for 
        BIE-funded schools operated by tribes;

  <bullet> $3 million to strengthen delivery of services to schools and 
        enrich instructional services and teacher quality; and

  <bullet> $34 million to bring broadband and digital access to all 
        schools in the BIE system over three years.

          --Includes increases totaling $59 million to repair and 
        rebuild BIE-funded schools to improve the educational 
        environment:

  <bullet> $37 million for school replacement construction projects and 
        planning;

  <bullet> $4 million to repair and upgrade education employee housing;

  <bullet> $12 million to replace individual buildings where the entire 
        campus does not need to be replaced; and

  <bullet> $18 million to fund major and minor facilities improvement 
        and repair projects.

          --Includes an additional $50 million dollars for the Native 
        Youth Community Projects, an ED program that encourages 
        community partnerships between tribes and either a BIE school 
        or a local school district to improve college-and-career 
        readiness for Native youth.

          --The Department is working collaboratively with tribes and 
        other Federal agencies including the Departments of Education, 
        Housing and Urban Development, Health and Human Services, 
        Agriculture, Commerce, Labor, and Justice to implement 
        education reforms and address issues facing Native American 
        youth and families.

  <bullet> College Readiness for BIE Students. BIE identified 20 tribal 
        colleges and universities (TCUs) to create or expand bridge 
        programs for BIE students. Each TCU will receive $50K to help 
        increase the number of low-income students who are prepared to 
        enter and succeed in postsecondary education.

  <bullet> Native Language Policy Framework. BIE will provide guidance 
        on the development of Native language curriculum to all BIE-
        funded schools.

  <bullet> Department of Education Preschool Development Grants 
        Competition. The President's FY 2016 Budget proposes $750 
        million for Preschool Development Grants, including expanding 
        eligibility to the BIE if sufficient additional funds are 
        appropriated for another competition.

Proposed BIE Reorganization
    To implement meaningful reform in the BIE that will lead to 
improved student outcomes, the bureau is proposing to restructure its 
organization and expand direct line responsibilities. The proposed 
restructuring is in line with recommendations of the Blueprint and 
addresses concerns raised by recent Government Accountability Office 
reports. The proposed changes have two primary objectives: (1) 
strengthened BIE capability to address school operating needs; and (2) 
improved oversight of BIE-operated and tribally-controlled schools.
    An example of how the restructuring responds to Blueprint 
recommendations is the proposal to re-designate Education Line Offices 
as Education Resources Centers (ERC) and relocate several to more 
effectively serve schools in its jurisdiction. The ERCs will be staffed 
with mobile School Solutions Teams to provide customized technical 
assistance to meet the unique needs of each school.
    An example of how the restructuring responds to GAO recommendations 
is the proposal to stand up the School Operations Division (SOD) within 
the BIE with additional administrative services functions with line 
authority through the Deputy Director--Operations. This action will 
strengthen financial stewardship of BIE schools and provide direct line 
expertise in teacher and principal recruitment, acquisition and grants 
for schools, school facilities management, educational technology, and 
communications.
Conclusion
    This forward looking vision for BIE--a vision rooted in the belief 
that all children can learn and that all tribes can operate high-
achieving schools--allows the BIE to achieve improved results in the 
form of higher student scores, improved school operations, and 
increased tribal control over schools.
    Thank you for the opportunity to testify today. I'm happy to answer 
any questions the Committee may have.

    The Chairman. Well, thank you so very much for your 
thoughtful comments.
    If I could move next to Ms. Melissa Emrey-Arras.

          STATEMENT OF MELISSA EMREY-ARRAS, DIRECTOR, 
     EDUCATION, WORKFORCE AND INCOME SECURITY ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Emrey-Arras. Chairman Barrasso, Vice Chairman Tester, 
and members of the Committee, thank you for inviting me here 
today to discuss GAO's work regarding Indian Affairs' oversight 
of and support for Indian education.
    Over the past 10 years, Indian Affairs has undergone 
several reorganizations, resulting in multiple offices across 
different units being responsible for Indian education. Within 
Indian Affairs, the Bureau of Indian Education oversees 185 
elementary and secondary schools that serve approximately 
41,000 students on or near reservations in 23 States. Student 
performance at these schools has been consistently below that 
of Indian students in public schools, raising questions about 
whether students at these schools are receiving a quality 
education.
    My remarks will cover findings from our prior work at GAO. 
Specifically, I will focus on three key management challenges 
at Indian Affairs: one, its administration of schools; two, the 
capacity of its staff to address school needs; and, three, 
accountability for managing school construction and monitoring 
school spending.
    In terms of the Administration, we have found that 
organizational fragmentation and poor communication undermine 
administration of these schools. In addition to the Bureau of 
Indian Education, multiple offices have responsibility for 
educational and administrative functions at these schools. For 
example, Indian Affairs provided us with a chart, and you can 
see it over there, on offices that support just school 
facilities, which shows numerous offices across three 
organizational divisions.
    Fragmentation and poor communication among Indian Affairs 
offices has led to confusion among schools about whom to 
contact about problems and has also resulted in delays of key 
educational services and supplies like text books for students.
    In 2013, we recommended that Indian Affairs develop a 
strategic plan for the Bureau of Indian Education and a 
strategy for communicating with schools. Although Indian 
Affairs agreed with the recommendations, it has not yet fully 
implemented them.
    Limited staff capacity within Indian Affairs poses another 
challenge to addressing school needs. Indian Affairs data 
indicate that about 40 percent of regional facility positions, 
such as architects and engineers, are vacant. We also found 
that staff do not always have the skills and training they need 
to oversee school spending. We recommended that Indian Affairs 
revise its workforce plan so that employees are placed in the 
right offices and have the right skills to support schools. 
Although Indian Affairs agreed with this recommendation, it has 
not implemented it.
    Inconsistent accountability also hampers management of 
school construction and monitoring of school spending. We have 
found that Indian Affairs did not consistently oversee some 
construction projects. For example, at one school we visited, 
Indian Affairs spent $3.5 million to replace multiple roofs in 
2010. The new roofs have leaked since they were installed, 
causing mold and ceiling damage. You can see a picture of the 
ceiling in one of the classrooms. Indian Affairs has not 
addressed the problems, resulting in continued leaks and damage 
to the structure.
    At another school we visited, $1.5 million in Federal funds 
were used to build a bus maintenance building that is too small 
to fit all the school's buses. And you can see that there on 
the side. Specifically, the building is not long enough to 
allow a large bus on the lift with the outside door closed. As 
a result, they now need to keep the outside door open when 
working on a large bus, which is just not practical in the cold 
South Dakota winters.
    In 2014, we found that the Bureau of Indian Education does 
not adequately monitor school expenditures using written 
procedures or a risk-based monitoring approach. As a result, 
the Bureau failed to provide effective oversight of schools 
when they misspent millions. We recommended that the Agency 
develop written procedures and a risk-based approach to improve 
its monitoring. Indian Affairs agreed, but has yet to implement 
these recommendations.
    Unless these issues are addressed, it will be difficult for 
Indian Affairs to ensure the long-term success of a generation 
of students. Thank you.
    [The prepared statement of Ms. Emrey-Arras follows:]

    Prepared Statement of Melissa Emrey-Arras, Director, Education, 
 Workforce and Income Security Issues, U.S. Government Accountability 
                                 Office
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you so much for your testimony. We 
appreciate it.
    Now the Honorable Carri Jones.

 STATEMENT OF HON. CARRI JONES, CHAIRWOMAN, LEECH LAKE BAND OF 
                             OJIBWE

    Ms. Jones. Good afternoon. The Leech Lake Band of Ojibwe is 
located in north central Minnesota, where we share overlapping 
boundaries with the Chippewa National Forest. I would like to 
thank Chairman Barrasso, Vice Chairman Tester, and other 
distinguished members of the Committee for holding this hearing 
and for the opportunity to testify.
    I firmly believe that taking the time to examine 
organizational challenges at the Bureau of Indian Education is 
extremely important. Further, it is vital that action be taken 
to address the deficiencies as we are working together to 
ensure that children throughout Indian Country are well served 
and have excellent educational opportunities.
    On a personal note, and on behalf of the Leech Lake Band of 
Ojibwe, I would like to take a moment to thank Minnesota 
Committee Member Senator Al Franken for his steadfast work for 
support the youth of our nation. Further, I would like to thank 
Senator Amy Klobuchar and the Minnesota Congressional 
Delegation for the continued efforts to improve the health and 
well-being of tribal members throughout the country.
    As it relates to organizational challenges at BIE, I can 
speak to a topic of great concern to the Leech Lake Band of 
Ojibwe and Tribes throughout the Country: the condition of 
schools in Indian Country. At Leech Lake, the dire need to 
replace the Bug-O-Nay-Ge-Shig School is a symbol of one of the 
major challenges facing the Bureau of Indian Education.
    We have spent a lot of time talking about the important 
issues in Washington. Over the years and recently, one of our 
high school students was able to join us and provide his unique 
perspective. During a meeting with members of Congress, he was 
asked why he came to D.C. to discuss the conditions of the 
school. He said, I am here for my siblings. I know I won't see 
a new school while I am there, but I am trying to do this for 
the best interest to make it a better place for my siblings. 
This is a very sad statement. Instead of fully focusing on 
learning, he worries about future generations of students.
    As you may know, the Bug-O-Nay-Ge-Shig School, which is 
administered and funded by the Bureau of Indian Education, has 
received significant attention from our community, the local 
and regional media, national media, this Committee and its 
members, and the current Administration. It has put a spotlight 
on very real organizational challenges. Sadly, we have not been 
able to focus time on many awards the school has received for 
its academic achievement and its Native language programs that 
helped our students learn and grow.
    Because our attention has been focused on the challenging 
conditions of the school, I would like to take a moment to 
describe them for you.
    The current facility is in a metal-clad pole barn 
originally built to house an auto mechanic and bus garage, not 
a high school. This facility has severe structural and 
mechanical deficiencies and lacks proper insulation. It does 
not meet safety, fire, and security standards. Students cannot 
use computers at the same time for fear of electrical overload. 
We have exposed wiring, lack of proper communication systems, 
telecom technology, and safe zones, which puts everyone at 
great risk during emergencies.
    The structure also jeopardizes the health of the students 
and faculty due to poor indoor air quality from mold, fungus, 
and a faulty HVAC system. Metal plates cover the floor of our 
science room and it is unable to be used to its full capacity 
because desks cannot properly affix to the ground. The facility 
suffers from roof leaks, rodents, uneven floors, poor lighting, 
sewer problems, lack of handicap access, and lack of classroom 
and other space. Due to the unsafe surroundings, many students 
have withdrawn from the school to attend other schools.
    The high school is among 63 schools funded by the BIE and 
recognized as being in poor condition and in need of 
replacement. The BIE construction backlog is at least $1.3 
billion. There needs to be sustained funding to address this 
backlog.
    The Administration has not focused enough attention in 
addressing serious issues in BIE schools throughout Indian 
Country. No amount of band-aid improvements or repairs will 
address the serious deficiencies in our high school, and many 
BIE schools face similar situations.
    How can we expect our children to learn in these 
conditions? Our kids deserve better. We appreciate the 
difficulty decisions facing the BIE, but our kids should not be 
the ones forced to shoulder this burden.
    It is clear to me, and I believe this Committee agrees, 
that this is simply unacceptable. Significant changes need to 
be made to address these problems. Our students deserve to 
attend schools where they can focus on learning, and not their 
health and safety.
    I would like to end with a quote from Sitting Bull: Let us 
put our minds together and see what life we can make for our 
children. Megwich.
    [The prepared statement of Ms. Jones follows:]

Prepared Statement of Hon. Carri Jones, Chairwoman, Leech Lake Band of 
                                 Ojibwe
    My name is Carri Jones, and I am the Chairwoman of the Leech Lake 
Band of Ojibwe (Band). Our Band is located on the Leech Lake 
Reservation in northern Minnesota. I want to thank Chairman Barasso, 
Vice Chairman Tester, and Members of the Subcommittee for holding this 
oversight hearing entitled ``Bureau of Indian Education: Examining 
Organizational Challenges in Transforming Educational Opportunities for 
Indian Children.'' My testimony is focused on the Band's long struggle 
to replace the Bug O Nay Ge Shig High School (High School) facility, 
which is administered and funded by the Bureau of Indian Affairs' (BIA) 
Bureau of Indian Education (BIE). We believe this to be emblematic of 
the significant challenges related to school facilities throughout 
Indian Country.
    I would like to specifically thank Senator Franken for his tireless 
efforts to assist the Band in addressing our priorities. The School not 
only serves a critical role providing a quality, culturally relevant 
education to the Band's children, but also serves as an economic engine 
for the entire community. We are deeply grateful for their support.
    Replacement of the High School has been a top priority of the Leech 
Lake Government and the entire Leech Lake community for many years. The 
Band has many critical needs on the Reservation on which it could 
testify; however, given the serious safety and health risks posed at 
the sub-standard High School facility, the Band has steadfastly focused 
its testimony solely on the need to replace the High School. Our hope 
is that this is the year that the Bureau of Indian Affairs (BIA), which 
handles construction of BIE facilities, begins the process to replace 
High School facility.
History of Indian Education
    After the formation of the United States, Indian tribes ceded 
hundreds of millions of acres of our homelands to the Federal 
Government to help build this nation. In return, the U.S. made promises 
to make the resulting reservations permanent livable homes, including 
providing for the education, health, and general welfare of reservation 
residents. These treaty promises were made in perpetuity, remain the 
supreme law of the land, and do not have an expiration date. However, 
as you know and as tribal leaders are stating in these hearings today, 
these promises have not been kept, and our children suffer because of 
it.
Dire Need to Replace High School Facility at Bug-O-Nay-Ge-Shig School
    The Bug-O-Nay-Ge-Shig School is located in Bena, Minnesota, 
operated by the Band and governed by its School Board. It is named in 
honor of Bug-O-Nay-Ge-Shig (Hole in the Day), an Ojibwe man who lived 
in the area at the turn of the century. He is revered for his 
commitment to fight for our land, our people, and for our children. 
Some of the kids ride school buses for 2 hours each way every day to 
attend school. Founded in 1975, the School started modestly with 35 
Ojibwe students from the Reservation in response to parental concerns 
that public schools were not meeting the academic and cultural needs of 
our students. Since that time, the School has transformed itself into a 
magnet school, teaching state-approved curricula with Ojibwe cultural 
components. Existing enrollment is a testament to the passion of the 
students, parents and teachers who are committed to strong academic 
achievement despite the significant deficiencies and health and safety 
hazards present at our High School.
    The High School is in dire need of replacement. Unlike other 
schools in the BIE inventory, the High School facility was not 
originally built for use as an academic space. It is a metal-clad pole 
barn originally built to house an auto mechanic school and bus garage. 
When the building was transformed into the High School, the intention 
was that it would only be a temporary space. However, generations of 
students have attended school in this makeshift building. The facility 
has serious structural and mechanical deficiencies and lacks proper 
insulation. The facility does not meet basic safety, fire, and security 
standards due to the flimsiness of the construction materials, 
electrical problems, and lack of alarm systems. Further, the building 
lacks a communication intercom system, telecommunication technology, 
and safe zones, which puts students, teachers, and staff at great risk 
in emergency situations. The police and emergency responders have 
dubbed the high school building as ``Killer Hall'' because an emergency 
would likely have tragic results. In addition, in high wind situations 
over 40 M.P.H., the students must evacuate outside into the winds 
because of the structural flaws with the flat metal building.
    The High School facility presents a continuing threat to the health 
and safety of our students and faculty due to poor indoor air quality 
that contains mold, fungus, and a faulty HVAC system. The facility also 
suffers from rodent and bat infestation, roof leaks and sagging roofs, 
holes in the roofs from ice, uneven floors, exposed wiring, poor 
lighting, sewer problems, lack of handicap access, and lack of 
classrooms and other space. These are just a few of the facility's 
numerous deficiencies. Due to the unsafe surroundings, many students 
have withdrawn from our High School and have transferred to public high 
school. Students report being embarrassed about the condition of the 
High School, which results in a negative image of the School and a 
lower matriculation rate. Despite these challenging conditions, the 
students perform well. For example, the School has won many awards for 
its language immersion program and our students are successful compared 
to their performance at other area schools.
U.S. Responsibility to Provide for the Education of American Indian 
        Students
    Several federal laws, treaties, and policies acknowledge the 
Federal Government's obligation to provide for the education of 
American Indian children. The Band's Reservation was established 
through a series of treaties with the U.S. and presidential executive 
orders. See Treaties of February 22, 1855 (10 Stat. 1165) and March 19, 
1867 (Article I, 16 Stat. 719); Executive Orders of October 29, 1873; 
November 4, 1873; and May 26, 1874.
    Through these treaties and executive orders, our ancestors ceded to 
the United States significant tracts of our homelands. In return, the 
U.S. promised to provide for school buildings, teachers, and the 
education of our youth. Hundreds of thousands of additional acres of 
our homelands were taken from us pursuant to the land allotment 
mandates of the federal Nelson Act in 1889, which is the Minnesota 
version of the General Allotment Act. As with the various treaty 
promises made to our people, one focus of the Nelson Act was to 
dedicate funds generated from these lands for ``the establishment and 
maintenance of a system of free schools among said Indians, in their 
midst and for their benefit.'' These treaty promises have no expiration 
dates and remain the law of the land. Sadly, these promises have not 
been kept.
High School Rated in ``Poor Condition'' in Need of Replacement by BIA
    The BIA categorizes this facility in ``poor'' condition. In 2007, 
the BIA Midwest Regional Office for the Office of Indian Education 
Programs issued a report expressing strong concerns about electrical 
problems, potential fire issues, and student safety. The BIA Office of 
Facilities, Environmental Safety, and Cultural Management had 
documented the numerous and serious deficiencies of the High School.
    In a February 28, 2011, in a letter responding to Ranking Member 
Moran's inquiry about the High School, former Interior Assistant 
Secretary for Indian Affairs Larry EchoHawk stated:

         The Bug-O-Nay-Ge-Shig High School shows evidence of continuing 
        deterioration . . . Due to the type of construction of the Bug-
        O-Nay-Ge-Shig High School, improvements to the school such as 
        expansion or construction of one building for classrooms or 
        administrative space is not an optimum solution. Preliminary 
        evaluations indicate that the building should be replaced 
        (emphasis added). The estimated date of replacement will depend 
        on the priority ranking of the high school and amount of funds 
        available to correct school facility deficiencies through 
        education construction appropriations.

    Working collaboratively with our community and with architects, we 
have developed construction and design plans for a new High School that 
will serve as a local anchor for cultural, environmental and economic 
sustainability. To meet these objectives, we must first provide our 
children with a learning environment conducive to academic achievement. 
We are ready to move forward, but we need the Subcommittee's help.
Lack of Funding for BIE Facilities Replacement Construction
    The U.S. spends billions of dollars on the construction of 
buildings for federal uses but somehow can't seem to budget sufficient 
funding to ensure that American Indian children go to school in 
buildings that are not only safe, but also conducive to learning. The 
President's FY13, FY14, and FY 2015 budget requests violated their 
treaty and trust responsibilities, as they sought to essentially impose 
a moratorium on replacement school facilities construction by 
requesting funding only for repairs and improvements and the 
construction of one school. We are extremely appreciative of this 
Committee's work to increase funding for construction of BIE schools 
over the past couple of years and believe the Administration is 
starting to take note of the extreme need throughout Indian Country. 
Although we believe some progress has been made, there is much more to 
be done.
    For the President's FY16 budget request, the BIA requests a ``$58.7 
million increase is requested for Education Construction to support the 
education transformation. This includes a $25.3 million increase for 
replacement school construction to complete construction of the final 
two schools on the 2004 replacement school construction priority list: 
Little Singer Community School and Cove Day School, both in Arizona. A 
$17.7 million increase for facilities improvement and repair is 
requested for repairs to building structures and components that are 
necessary to sustain and prolong the useful life of education 
buildings. Additionally, $11.9 million is requested to address major 
facility repair needs at schools like the Bug-O-Nay-Ge-Shig school on 
the Leech Lake Band of the Ojibwe reservation''
    We are pleased that the President recognizes the significant needs 
at the Bug-O-Nay-Ge-Shig High School in his budget and that the 
Administration is making efforts to identify additional funding to 
address some of the backlog. With this said, the FY16 budget request 
does not offer enough funding to clear out the current backlog and 
admits that there are many schools, such as our High School, that are 
rated in ``poor condition'' with the potential for life, safety, and 
health hazards. Our High School is among the more than 63 schools 
funded by the BIE that are in poor condition. At this time, the BIE 
construction backlog is more than $1.3 billion and this number keeps 
growing.
    Instead, the Administration should be requesting at least $200 
million for FY16 for school and facilities replacement with a plan to 
request at least $200 million each year until the BIE school 
construction backlog is addressed. The Bush Administration had 
requested over $200 million each year in FY05-FY07 for BIE school and 
facilities construction and was able to make progress in reducing the 
BIE construction backlog. Only through consistent and sustained funding 
will the BIA be able to make a dent in its BIE school facilities 
backlog. Our hope is that the Subcommittee could consider addressing 
the BIE construction backlog by developing a plan to significantly 
reduce it over a period of time.
Conclusion
    The Leech Lake students and students throughout Indian Country 
deserve the opportunity to attend school in a safe environment that 
provides them with educational opportunities afforded to other 
students. The United States owes them this. Instead, our students 
attend high school in a sub-standard, dangerous environment that is not 
conducive to learning. This impacts their self-worth, creates feelings 
of inferiority, and sends a message to them that their education and 
even their lives are unimportant.
    Congress and the Administration must develop a comprehensive plan 
to fully fund the construction needs at the Leech Lake High School and 
fix organizational barriers which are preventing this. In addition, 
Congress and the Administration must work in consultation with tribal 
leaders, educators, and others to develop innovative ways of funding 
and building Indian reservation schools.
    We appreciate all the work that this Committee, its Members, and 
our Representatives have done to raise awareness and advance the 
replacement of the school to date and we look forward to continuing to 
work with you. Thank you for the time to testify and discuss this 
important topic.

    The Chairman. Thank you very much, Chairwoman Jones. I 
appreciate.
    Now Dr. Tommy Lewis.

STATEMENT OF TOMMY LEWIS, SUPERINTENDENT OF SCHOOLS, DEPARTMENT 
                   OF DINE EDUCATION, NAVAJO 
                             NATION

    Dr. Lewis. Chairman Barrasso, Vice Chairman Tester, members 
of the Committee, my name is Tommy Lewis, Jr., Superintendent 
of Schools for the Navajo Nation Department of Dine Education 
at Window Rock, Arizona. Thank you for inviting me to testify 
today.
    We have 17 school districts on our Navajo Nation, with a 
total of 244 schools and approximately 89,000 students in 
kindergarten through 12th grade. Sixty-six of these schools are 
BIE funded, 32 are BIE operated, and 33 are tribally-controlled 
grant schools, and we have one 638 contract school.
    For over 140 years, Federal and State public schools have 
dominated education on our Navajo Nation. The Navajo Nation 
best understands the needs of its children, but lacks the tools 
to effectively regulate the education of Navajo children.
    The reorganization of the BIE has set the stage for a 
discussion on how we can improve the education of our children 
and build a high-quality Navajo education system. We have 
conducted a feasibility study on assuming control of the 32 BIE 
operated schools on the Navajo Nation. The 34 tribally- 
controlled schools will be merged into this new system later 
on. We are developing a plan to improve our education system in 
using the Sovereignty in Education Grant.
    The BIE is trying to improve, despite all the challenges 
that they face as an organization. The BIE is working on 
systemic and organizational challenges to improve educational 
opportunities for the Navajo.
    One area of concern involves school facilities and 
construction. Navajo schools have to deal with the BIE on many 
issues, and then the BIA for maintenance and construction. This 
causes confusion and inefficiency. The school construction 
program generally has been tedious and should be restructured. 
Authority over the school facilities and construction should be 
merged into the BIE.
    The inability of the BIE and the BIA to properly maintain 
school facilities has influenced the Navajo Nation's 
discussions on whether it can exercise great sovereignty in 
education by assuming control of the remaining 32 BIE operated 
schools. The poor conditions at existing facilities could be 
improved. The Federal Government needs to prioritize upgrading, 
fixing, and replacing schools just as they do for Department of 
Defense schools.
    Another common complaint is that decisions regarding 
personnel procurement, accounting, and school operations take a 
long time. Procedures need to be streamlined. Operational and 
back-office decisions should not necessarily impede the best 
functioning of the school.
    The BIE needs to improve how it monitors finances and 
audits. One school on Navajo was cited in a GAO report as 
having had $1.2 million in Federal funds sent to an offshore 
bank account. This school has also missed three Federal audits 
and was accused of misusing school funds. This school has been 
taken over by Department of Dine Education and the school is 
now in compliance with Federal law.
    During the last several years, the BIE has been better at 
communicating and providing information regarding school 
finance and audits. We have been working with the BIE to ensure 
greater oversight over tribally-controlled schools regarding 
the late audits and misuse or mismanagement of school funds, as 
demonstrated by the example I just gave.
    Another systemic change involves accountability. There is 
no uniformity across the Navajo Nation on such things as 
accountability or measuring the effectiveness of the education 
program. Within the 17 public school districts and 3 States, it 
is difficult to get a complete picture of the academic 
performance of Navajo students or inadequately evaluate the 
effectiveness of our academic programs.
    Members of the Committee, the Navajo Nation is embarking on 
a monumental task in assuming authority of 32 BIE-operated 
schools. I ask for your support because this is something that 
has never been done by an Indian Tribe throughout the country. 
Navajo, if successful, will be the first Tribe to assume 
control of its education, and we are determined to do that.
    Thank you very much.
    [The prepared statement of Mr. Lewis follows:]

     Prepared Statement of Tommy Lewis, Superintendent of Schools, 
              Department of Dine Education, Navajo Nation
    Chairman Barrasso, Vice Chairman Tester, and Members of the 
Committee, my name is Dr. Tommy Lewis, and I am the Superintendent of 
Schools of the Navajo Nation Department of Dine Education. Thank you 
for this opportunity to present testimony on the organizational 
challenges that we face in transforming educational opportunities for 
our children. My testimony will focus on challenges that the Navajo 
Nation has encountered as a result of the fragmented bureaucracy 
governing Indian education at the Bureau of Indian Affairs (BIA) and 
Bureau of Indian Education (BIE), the BIE's reorganization, and will 
offer recommendations for improving the system to enhance educational 
opportunities for Native children.
    The Navajo Nation has a tremendous stake in improving the education 
of our children. We must prepare them for active and equal 
participation on the national and global marketplace. We must prepare 
them to be productive citizens in the 21st century and to be positive, 
involved members of our communities. Most importantly, we must prepare 
them to be the future leaders of our Nation. There is no more vital 
resource to the continued existence and integrity of our Nation than 
our children.
A Profile of Education and Schools on the Navajo Nation
    The Navajo Nation is situated within 3 states: Arizona, New Mexico, 
and Utah. 17 school districts are operating schools on the Navajo 
Nation, with a total of 244 schools. There are a combined total of 
38,109 Navajo students in all schools on the Navajo Nation. 
Approximately 60.5 percent or 23,056 of these Navajo students attend 
public schools on the Navajo Nation. Another 48,172 Navajo students 
attend public schools off of the Navajo Nation. 66 out of the 183 BIE-
funded schools and residential halls are located on the Navajo Nation, 
of which 32 are BIE-operated schools (out of 57), 1 is a Public Law 93-
638 contract school, and 33 are Public Law 100-297 tribally-controlled 
grant schools. BIE operated and tribally controlled grant/contract 
schools collectively educate 39.5 percent of all Navajo students, with 
21.2 percent attending BIE-operated schools, and 18.3 percent attending 
grant/contract schools.
    At this moment, the Navajo Nation does not have a uniform 
educational system that allows for consistent regulatory oversight of 
the educational opportunities offered to Navajo students. The system is 
highly fragmented. The BIE is in charge of the schools that they 
control directly. The P.L. 100-297 and P.L. 93-638 grant/contract 
schools operate as their own individual school districts (local 
education agencies), where they have their own school boards, 
superintendents, personnel, finances, and transportation departments, 
as well as individual curriculums (or lack thereof), and individual 
teacher/principal evaluations (or lack thereof).
    The reorganization of the BIE sets the stage for a discussion on 
how we can improve the quality of education for our students within our 
schools and to build a high quality Navajo Nation education system. The 
Navajo Nation must be more involved in and in control of the education 
of our children. We have taken the reorganization of the BIE as an 
opportunity to study our existing education system, and have conducted 
a Feasibility Study on assuming control of all BIE-funded schools on 
the Navajo Nation. We are developing a plan of action to improve our 
education system in part through a Sovereignty in Indian Education 
Grant (SIEG). We've received valuable input and feedback from numerous 
Navajo Nation schools and leaders from various public hearings that 
we've held on this matter.
    The BIE is trying to improve, despite all the challenges that they 
face as an organization. The changes made to the BIE should be measured 
and the BIE held accountable for outcomes. Over the past three (3) 
years, the BIE's reorganization and attempt to build a Navajo ``school 
district'' model appears to be producing results. Aggregate test scores 
provided by the BIE and Department of Dine Education Office of 
Education Research and Statistics show modest improvements in test 
scores among BIE-operated schools, in contrast to tribally controlled 
grant/contract schools.
    The ``district model'' that the Navajo BIE-operated schools are 
using for their schools appears to be working because they have been 
able to develop and implement a more uniform system, instead of each 
school going in different directions and/or left without support. The 
BIE ``Navajo district'' has been able to develop and implement a 
uniform and rigorous curriculum aligned to common core standards, 
rather than each school developing their own curriculum that may or may 
not be aligned to standards. Professional development, interventions, 
instructional strategies, data analysis, etc., seem to be more 
effective when used in a ``district system'' because the BIE is able to 
control and influence those factors, rather than each school operating 
as their own Local Education Agency (LEA). In contrast, tribally 
controlled grant/contract schools on the Navajo Nation operate 
independently as their own LEAs with 34 different systems. The BIE 
legally cannot mandate or hold tribally controlled grant/contract 
schools accountable to improve, aside from releasing federal funds to 
those schools.
    Attached below are data charts using state assessments (AIMS, 
NMSBA, UPASS) over the past three (3) years showing significant 
differences in academic achievement between BIE-operated schools and 
tribally controlled grant/contract schools from SY 2010-11, SY 2011-12, 
and SY 2012-13.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Systemic and Organizational Challenges Experienced by the Navajo Nation
    The GAO has reported several times on ``systemic management 
challenges'' that hinder efforts to improve Bureau of Indian Education 
(BIE) schools, and recently reported that steps to implement 
recommendations made by GAO to address these problems had not been 
fully implemented. The GAO's previous studies noted that several 
organizational realignments have resulted in a fragmented bureaucracy 
with several units being responsible for academic and administrative 
functions. They have reported that this fragmented system has led to 
confusion on such basic matters as whom to contact about building 
maintenance issues. The GAO has noted that frequent staff turnover and 
a lack of a strategic plan for the BIE have compounded problems. The 
GAO has also noted additional problems including many vacant positions 
at the BIE, staff lacking requisite knowledge and skills, and 
inconsistent accountability of school construction and monitoring of 
school construction.
    Many issues arise from the fragmented organizational 
responsibilities at BIE-funded schools. One area of significant concern 
is school facilities and construction. Navajo schools have to deal with 
the BIE on many issues, but then deal with Bureau of Indian Affairs 
(BIA) for construction. This lack of coordination causes confusion and 
inefficiency. Overall, the school construction program has been a 
tediously slow process.
    Another common complaint among BIE-operated schools (not grant 
schools) are that decisions regarding personnel, procurement, 
accounting, school operations take a very long time within the BIE 
structure.
    The inability of the BIE and BIA to properly maintain BIE school 
facilities has had an impact on the Navajo Nation's deliberations on 
the extent to which it can exercise greater sovereignty in education by 
assuming control of the remaining 32 BIE-operated schools on the Navajo 
Nation. This is because the dilapidated and poor conditions at existing 
facilities would expose the Navajo Nation to a tremendous financial 
liability.
    The BIE needs to improve how it monitors finances and audits. The 
BIE has been better at communicating with and informing the Department 
of Dine Education on school finances and audits, but there remain 
problems. One of the schools (Rockpoint) that was cited in a previous 
GAO report, with $1.2 million in federal funds being sent to off-shore 
bank accounts, that was missing three (3) federal audits, and accused 
of misusing school funds, was eventually taken over by the Department 
of Dine Education in 2012. Working in partnership with the BIE/BIA and 
DODE, the school is now in compliance with the law and is an example of 
how tribes can assume greater control and responsibilities over 
schools.
    The organizational challenges to transforming opportunities for 
Native children do not end at the managerial. The BIE is undergoing 
another reorganization, but still has no meaningful plan for how they 
will hold schools accountable or intervene in failing schools. The BIE 
uses state accountability systems. On the Navajo Nation, this plus the 
many different school systems existing on the Navajo Nation make it 
difficult to measure the academic performance of Navajo children or 
adequately evaluate the effectiveness of academic programs. Because of 
the highly fragmented education system that exists on the Navajo 
Nation, there is also no consistent or uniform method to measure the 
effectiveness of teachers, principals and school administrators on the 
Navajo Nation.
Recommendations for Reform
    The organizational challenges to transforming opportunities for 
Native children are many, but we have some recommendations for reform.
    Support Tribal Sovereignty in Education--Properly executed, greater 
sovereignty in education will help to improve academic outcomes and 
alleviate the systemic challenges at BIE-funded schools. The Navajo 
Nation's Alternative Accountability Workbook (AAW) is the foundation of 
the Navajo Nation's efforts to develop the tools to effectively govern 
Navajo education. The AAW also provides the foundation for a true 
Navajo standards-based curriculum for use at our schools. The Navajo 
Nation is still waiting for final approval of the AAW by the BIE and 
the Department of Education.
    Approval of the AAW by the BIE and the Department of Education has 
been unreasonably delayed for several years while Navajo children 
continue to receive a substandard education. Most recently this 
unreasonable delay has taken the form of the BIE and Department of 
Education seemingly losing track of our last submitted draft. The 
Navajo Nation Alternative Accountability Workbook must have its final 
review and approval in order for the Navajo Nation to exercise its 
right to sovereignty in education.
    As the BIE reorganizes, and Congress debates changes to the 
Elementary and Secondary Education Act, the ability of tribes to 
exercise sovereignty in education must be maintained, and tribes must 
be given additional tools to be able to meaningfully assert control 
over the education of their children in a timely manner. The Navajo 
Nation seeks the ability to be designated and recognized as a ``State 
Education Agency (SEA)'' under federal law. Tribally developed 
assessments or accountability plans should be deemed approved if they 
are not denied within a specified timeline. The Family Educational 
Rights and Privacy Act should be amended to allow tribes that are able 
to ensure the security of sensitive student data access their students' 
educational data. This will enable tribes to be able to properly 
evaluate the effectiveness of their tribally developed academic 
programs.
    Providing tribes with the tools to meaningfully assert sovereignty 
in education, where a tribe is able to and desires to take such 
control, would also vitiate many of the systemic management challenges 
at the heart of the GAO's reports by removing the fragmented federal 
bureaucracy from the equation.
    The BIE Needs to be a ``Stand Alone Agency''--Based on the comments 
and feedback provided by Navajo schools and school boards, the current 
BIE needs to function as a ``stand alone agency,'' which aligns with 
the reform goal of ``building an agile organizational environment.'' 
Many issues arise from having to deal with separate agencies for 
separate functions. In particular, one area of significant concern is 
school facilities and construction. Navajo schools have to deal with 
the BIE on many issues, but then deal with Bureau of Indian Affairs 
(BIA) for construction. This lack of coordination causes confusion and 
inefficiency. At the moment, the current BIE reorganization does not 
seem to include merging the authority of the BIA over school facilities 
and construction into the BIE's organizational structure. Overall, the 
school construction program has been a tediously slow process, which 
needs to be streamlined and restructured to be more efficient.
    Funding for School Replacement and Construction Needs to be 
Prioritized--The BIE/BIA and federal government also needs to 
prioritize upgrading, fixing and replacing existing schools just as 
they do for the Department of Defense Education Activity (DODEA) 
schools. As noted above, the poor conditions at BIE facilities is a 
disincentive to the Navajo Nation to exercise greater sovereignty in 
education.
    Operational and Financial Decisions within BIE-Operated Schools 
Needs Quicker Action--As noted above, a common complaint at BIE-
operated schools is that decisions regarding personnel, procurement, 
accounting, school operations take a very long time within the BIE 
structure. Operational and ``back office'' decisions should not 
unnecessarily impede schools.
    BIE Needs Better Fiscal Management and Oversight of School 
Spending--As noted in previous GAO reports, the BIE needs better 
management and accountability, improved oversight of school spending. 
To the BIE's credit, they have been providing better communication and 
information to the Department of Dine Education on school finances and 
audits. The BIE and DODE have also been working together to ensure 
greater oversight over tribally controlled grant/contract schools 
regarding late audits and misuse/mismanagement of school funds as 
demonstrated by the example of the Rockpoint school described above.
Conclusion
    We must have first access to the minds of our children to ensure a 
bright and prosperous future for the Navajo Nation. With your help, we 
can achieve this future. Thank you for your time and attention to these 
matters.

    The Chairman. Thank you very much, Dr. Lewis. I appreciate 
your testimony and your determination. Thank you.
    We will head to questions at this time and start with 
Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Chairman Barrasso.
    I would like to start with Director Roessel. As follow-up 
to the GAO report that was very critical of how the Bureau of 
Indian Education is expanding their funds, can you detail the 
steps you are taking in response to that GAO report?
    Dr. Roessel. Thank you, Senator. Before the GAO report even 
came out, we started with a listening session and a review for 
the blueprint for reform, so many of the items that are 
identified in the GAO report we had already started looking at 
and we had found and we had heard, and we started setting up 
our organization to meet those challenges.
    I think one of the things I would say up front is that in 
listening to the testimony, one of the things that we want to 
make sure that we wanted to do as we started to implement the 
Blueprint for Reform and the restructuring to meet those 
challenges is that we didn't do it in a band-aid fashion. We 
need to do a comprehensive approach.
    So the first thing that we did is we realigned roles and 
responsibilities so we have clear lines of authority now. One 
of the challenges that we faced is in the past we had line 
offices which are closer to the schools, and they did a lot of 
different things in the line office. What we did is clarify 
their role, so now people deal with just education issues, just 
contracting issues, just grant management issues. That has 
cleared up a lot of things.
    In 2014, we had 23 overdue management decisions. As of 
right now, we have zero, partly because we have aligned a lot 
of these roles and responsibilities. That is one thing.
    I think the other thing that we are doing right now, as we 
move forward in looking at the GAO report, but also taking a 
step back. I really want to emphasize this. I don't want 
everything to be done in our reorganization just on GAO. There 
are many things in there I disagree with, but there are certain 
things that I think that we need to focus on.
    Ensuring that our staff are trained I think is very 
important as we move forward. We are looking at trying to 
improve that training process. That comes in two areas: one, we 
need to train Tribes so they can handle some of these issues; 
and we need to train our staff that are out there. So we have 
implemented a training program along those lines.
    Communication is critical. How do we try to communicate not 
just within BIE, but with Tribes and other agencies? We focus 
on a communication plan that is developed and we are using now. 
We have weekly webinars for areas from school improvement to 
facility O&M budgeting, all of these different areas. So 
information getting out there, I think is very important for us 
as we move forward.
    So we are doing this in a comprehensive approach and I 
think we are hopeful that as we move forward and continue with 
our reorganization, which is a big part of the reform plan, 
that then we will be able to see even more return from what we 
have achieved so far.
    Senator Hoeven. Now I would like to follow up with you and 
with Ms. Emrey-Arras. Is there a plan for follow-up and 
reporting, then, to this Committee as you implement these steps 
to be responsive to the recommendations made by the GAO? Maybe 
both could kind of weigh in on that.
    Ms. Emrey-Arras. Sure. At GAO we track recommendations for 
a period of four years and put the status of the follow-up on 
our Web site so it is available to everyone publicly. I would 
say that the recommendations from that report we did regarding 
oversight of spending issues are still outstanding; they have 
not been implemented. Some really basic ones in terms of making 
sure you have folks with the right skills to oversee 
expenditures have not been fulfilled. Similarly, having written 
procedures to oversee some of the larger funding has not been 
fulfilled either. So there is a lot more that needs to be done 
on that front.
    Senator Hoeven. Director?
    Dr. Roessel. Well, I think in response to that, we are in 
the process of a major reorganization, so to develop piecemeal 
approaches when it is not actually impacting the entire 
organization I think would be irresponsible for us. So what we 
are looking at doing is trying to make sure that we are focused 
on the overall picture as we move forward so our workforce plan 
is aligned with our reorganization plan. That is part of the 
secretarial order that is due September 30th of this year. So 
it is aligned, but it is aligned in a way that I think is 
comprehensive. Again, I will come back, to I don't think it is 
appropriate for us to do a little here, a little there, and we 
end up fixing a problem only to fix it again in a couple 
months.
    Senator Hoeven. And I want to make sure that we are 
tracking that follow-up. I think 10 of us wrote a letter to 
Secretary Washburn and said we wanted to make sure that we were 
informed of your efforts in response to that report, so that is 
what I want to make sure, is we have a clear line of 
communication on how we are following up and tracking that 
progress.
    Dr. Roessel. Yes, sir. We would be glad to have that 
process.
    Senator Hoeven. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Hoeven.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Mr. Chairman.
    First of all, Mr. Roessel, I appreciate the efforts of the 
BIE in working with me on the Pine Hill Elementary School and 
its safety issues and all of that, and working with the 
superintendent and others. We have been able to get a temporary 
certificate of occupancy issued, which I am really happy about.
    I want to acknowledge that progress, but I am still 
frustrated that students have not yet moved into the building. 
There is still work to be done. I hope that we can work on that 
together to move it to the point to get the students in there. 
Do you have any additional progress to report on that and will 
you work with me on that?
    Dr. Roessel. I will certainly work with you on that. The 
progress that we have heard from the school board is that they 
do not want to move into the building until the new school 
year. So the school board and administration are making that 
decision, and it is not because of the BIE.
    Senator Udall. So that would be this fall, I guess.
    Dr. Roessel. This fall, yes, sir.
    Senator Udall. Great.
    One of the issues that I have worked on a lot is language 
immersion, sharing opportunities to learn Native languages in 
the schools. What have you run into there? What are your 
obstacles, what are the challenges you have run into? As part 
of your reform process, are you trying to deal with that issue? 
And then I would also be interested with the GAO, if they saw 
anything on that front. But please go ahead.
    Dr. Roessel. Well, thank you, Senator. I think one of the 
areas that we are really focused on is trying to make sure that 
we work with Tribes in partnership. It is not enough just for 
us to have a program and an initiative; we need to have a goal 
of fluency, not just teaching language.
    I think we have started to change that conversation to say 
that our BIE plan for Native language is fluency. That changes 
the whole landscape as we move forward. We have identified $3 
million out of our budget to identify and, as mentioned 
earlier, tried to develop language programs, get the 
foundations what is needed.
    In our reorganization, we have offices that are proposed 
that will set up at the central office, as well as our regional 
offices, for Native language, history, and culture; not to 
dictate to Tribes what to do, but to be able to give them the 
resources if they want an immersion program or bilingual 
program or heritage language program. So it is something that 
is very important to me also.
    When I was at Rough Rock, I implemented an immersion 
program for Navajo, so I know what it takes to implement that, 
and it is something that we will really push. The schools that 
we directly operate, we are going to be doing things that are 
specific to those schools and then try to encourage and give 
the support to tribal schools so that they too then can start 
looking at fluency; not just the language program. I think we 
need to go and set the bar even higher for fluency.
    Senator Udall. And I think it is important that somebody 
like you have worked at a school like Rough Rock as a 
superintendent and now you are managing the BIE bureaucracy. So 
that is tremendously important.
    Ms. Emrey-Arras, do you have any thoughts on the language 
immersion, learning Native languages, those issues that you saw 
in your report at all?
    Ms. Emrey-Arras. To date, we have not done work on the 
language issue; however, we would be happy to do so if this 
Committee is interested in us pursuing that in the future.
    Senator Udall. Okay, thank you.
    And, Mr. Roessel, just to finish out here, I know that 
people across the board are interested in reform. I mean, this 
is something the word has been used a long time, it is a real 
challenge. All of us have said that these 42,000 to 50,000 
students you have in the BIE schools should be a model for the 
Country. It is the right size that if you really apply your 
best thinking and best teaching, you can really make a 
difference.
    I think there is enthusiasm for that, but one of the real 
issues, and this is always the case in dealing with Tribes, is 
how good has the consultation been. My sense is, from listening 
to my Tribes in New Mexico, they are excited about moving 
forward, but they are not so sure that they have been involved 
in a consultative process. Can you speak to that?
    Dr. Roessel. As we have gone down this path of school 
reform within BIE, we have actually started consultation two 
years ago, and then last year at this time we had consultation 
on the Blueprint for Reform. We are in the process of having 
consultation right now on the reorganization plan that is 
aligned with that blueprint. In fact, Friday I will be going to 
Albuquerque for a consultation.
    One of the things that we tried to do is not just focus on 
big-scaled consultations, but actually individual tribal 
consultations with Tribes that are being impacted. I have had 
meetings with 20 different Tribes, separate Tribes, 
individually, talking about their issues and their concerns as 
this implementation plan takes hold; what is it going to do to 
their Tribe.
    So I think in this situation we have gone even further 
because I think one of the issues that we look at when we have 
a large-scale consultation is everyone gets 10, 15 minutes to 
speak. These meetings that I have had with tribal leaders have 
been six hours, eight hours, in one case ten hours just to be 
talking specifically about their issues.
    We can't improve the BIE unless Tribes are with us, and I 
think one of the things that we are really excited about moving 
forward is that we need to have that partnership, and for the 
first time now Tribes are being asked to sit at the table to 
talk about their future and their education; and it is not just 
something that is done to them, but now it is something that is 
done with them.
    So we continue with that. We have added two additional 
consultations just to try to meet that need from what we heard 
out in the field.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Ms. Emrey-Arras, in reading your testimony, I have to say I 
was struck by some of the inefficiencies that seemed to come 
about from the decision-making process, and I think that 
probably is using the term loosely, there is a decision-making 
process at times, being removed from BIE schools themselves and 
put in the hands of bureaucrats a long ways away.
    One example you mentioned, there was a school that GAO 
visited where the students and teachers went for an entire year 
without hot water because the request for a new water heater 
got lost in the shuffle at the Bureau of Indian Affairs. 
Wouldn't it make a whole lot more sense to have these sorts of 
decisions made on the ground by those who know better and what 
the school needs when they need a new hot water heater or not, 
rather than Washington, D.C. or Albuquerque?
    Ms. Emrey-Arras. It is a shame. You should not have 
children and staff going without hot water at an elementary 
school for close to a year. I think we are firmly advocating 
that there be accountability for making sure that needed 
repairs get done and that there is also clear communication. 
Schools often don't know who to contact about repairs when they 
need help.
    Just a very basic example which I think illustrates what is 
going on is that something as basic as a directory for BIE, so 
you know who to contact, has not been updated since 2011. We 
have mentioned this in prior testimonies. It has yet to be 
updated as of this afternoon. So something very simple about 
who do you call when you have a problem is difficult to figure 
out because the numbers aren't there.
    Senator Daines. Have they ever heard of the term customer 
service?
    Ms. Emrey-Arras. That is a good question.
    Senator Daines. And maybe this example is something we can 
learn from. What was the root cause of that particular issue 
where children went for a year without hot water?
    Ms. Emrey-Arras. I think the folks in charge of making 
those repairs were not aware that the request had been made 
about a year before. They were not aware of that request until 
we actually visited the school and brought it to the attention 
of Indian Affairs. After that point it took about a month 
before the new hot water heater was brought in, and it was only 
$7,500. So this was a pretty minor purchase, and it took quite 
a while to have it achieved.
    Senator Daines. Thank you.
    Dr. Roessel, according to the GAO's testimony, BIE students 
consistently score lower in math and reading than their Indian 
peers attending public schools. Additionally, graduation rates 
for BIE students are significantly lower. In fact, during the 
2011 and 2012 school year, the graduation rate for BIE students 
was only 53 percent, compared to 67 percent for Indian students 
attending public schools.
    So my question is, what is the reason for this gap in 
performance? And then the second part would be what are some 
reforms that are needed to address this problem?
    Dr. Roessel. The biggest impact in improving educational 
outcomes, of course, is in the classroom, and that is what we 
are focusing our reform efforts. What we need to do, and I 
would say that we need to build a quality of instruction with 
our current teaching staff, so we need to have reform efforts 
that are aligned with professional development; and we are 
doing that. We have instituted an alignment with the National 
Board for Professional Teaching Standards. We have 252 teachers 
that are in that program right now.
    Senator Daines. Is there a challenge in attracting and 
retaining the best teachers into that program that you are 
saying is in the classroom, and then it comes back to the 
administration, the teachers? Can you zero in on that for me?
    Dr. Roessel. Yes. I think in that instance it was difficult 
to get the word out. They are giving three years of their life 
for a much higher standard, so we had to provide incentives, 
and we did that. We provide bonuses in each year that they were 
complete, the first phase, second phase, and then they become 
nationally board certified. So we would provide those incentive 
bonuses from BIE, not the individual schools, so it doesn't 
impact their school budget. So that is one thing in the reform 
effort, is trying to ensure that we have professional 
development to improve the quality of instruction for our 
current.
    The other is we need to recruit, and the recruiting is hard 
because we have, again, the facilities. We talk about the 
school facilities, many being in poor condition. That is not 
even talking about the teacher housing or the lack of teacher 
housing in many of these remote locations. So one of the things 
in the President's budget for 2016 is an effort to also have, 
with HUD finding, a pilot program, a $10 million set-aside 
specifically for BIE-funded teacher housing so Tribes and 
schools could build that. So I think that is something that 
would help attract quality teachers to come in there.
    But, again, I think the focus that we have with the BIE 
reform effort is we need to focus on that classroom; improve 
instruction, improve leadership, improve governance, improve 
tribal partnerships, each step taking it a little higher.
    The graduation rates? One of the problems I think that we 
have faced in Indian education is that when we are faced with 
those low academic data, we begin to narrow the curriculum; 
more math, more science, or just more of those, and the kids 
are bored.
    I don't think any of us would want to go to school in some 
of the schools they have now; they just have two subjects, 
reading and math. There is nothing else there. So we need to 
expand and integrate tribal culture, tribal language, tribal 
history into math, into reading, into science so that we expand 
the curriculum and create opportunities, I think; and that is 
what we are trying to do with the reform efforts, is provide 
that professional development to expand the opportunities for 
teachers who then can deliver that to the classroom.
    Senator Daines. Thank you.
    The Chairman. Thank you very much, Senator Daines.
    Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    I don't think anyone can look at these pictures and read 
the GAO report and expect that children who go to school in 
that kind of physical plant can feel valued or appreciated. Or 
even going without hot water for a year tells you something 
about what your position is in life.
    I think we have to begin with that problem. It is so 
enormously frustrating when we look at this because as we try 
and build out greater opportunities, greater success rates, 
whether it is lower rates of behavior in mental health, more 
economic opportunity, more high school graduation rates, we 
project so many demands onto these kids. But the message they 
get every day is that they are not really worthy, they are 
somehow less than other kids, because we would never let this 
happen in a public school in North Dakota. We would never let 
this happen.
    I used to do inspections when I had the fire marshal 
service under my jurisdiction when I was attorney general. We 
shut down schools like this. So we all share that 
responsibility, whether it is the folks at BIE, whether it is 
the folks at BIA, whether it is this Committee, whether it is 
Congress, whether it is the Administration.
    We can't fix this problem without resources. The difficult 
problem with getting resources is until we don't read some of 
the waste and abuse and fraud, it is hard to convince folks to 
put more money into this problem. So that is the impasse.
    Dr. Roessel, I so enjoyed our first meeting because I had 
great hope for the Bureau of Indian Education under your 
leadership. You came from the Navajo; you understand what it 
is. Can you tell me, now that you have had over a year since we 
visited, probably, what have been your worse frustrations, like 
you would really like to tell someone what it is? Can you just 
share some of those ideas with us? Here is your chance.
    Dr. Roessel. And keep my job?
    [Laughter.]
    Senator Heitkamp. Now, you know, it is too important to 
these kids. I know you and I know you aren't worried about 
keeping your job.
    Dr. Roessel. Well, I will be honest and blunt. We need more 
money to build our schools, $1.3 billion. Everyone knows that 
figure. And I think we are starting to get there. It is a small 
step, but at least there is hope; whereas, in the past budgets 
were not prepared.
    Senator Heitkamp. But I think some of the cynics would say, 
how do we know it is not going to get wasted? How do we know it 
is not going to get deployed in building a school building that 
isn't big enough for the buses or fixing a roof that ends up 
looking like that? How do we know that?
    Dr. Roessel. Well, I don't think you can ever guarantee it. 
But I think that if you have the system and the structure in 
place that has accountability, lines of authority, I think if 
you have people that want to do the right thing, and I think 
they do, I think one of the things is that, we need to change 
the way we view the problem. When you ask what am I concerned 
about, we are in love with the problem. We should be in love 
with the solutions. So we focus so much on just reiterating the 
problems that we never get to solutions.
    Senator Heitkamp. Do you think that chart is the problem?
    Dr. Roessel. I think that chart is part of the problem.
    Senator Heitkamp. I think that is a big part of the 
problem.
    Dr. Roessel. And I think we are addressing it in our 
reorganization.
    Senator Heitkamp. How do you have accountability when you 
have that kind of jurisdictional morass? How can anyone be held 
accountable when everybody can point fingers?
    Dr. Roessel. I agree with you, and I think that the 
reorganization that we have in place has clear lines of 
authorities; not lapped over each other, but BIE having 
facilities under BIE will help us, because we will be able then 
to drive the proposals for budgets because they will come from 
education experts, not from somebody else.
    Senator Heitkamp. And this is part of the discussion we 
have been having. I think it is critically important that you 
begin almost immediately to address some of the lines of 
authority, some of the waste, fraud, and abuse.
    I don't think you can wait for the whole plan to gel 
together before you start saying, we are on top of this and we 
will not let offshore bank accounts, we will not let 
incompetent people with maybe bad motives sign contracts that 
will not result in improvements to the schools.
    So that answer that you gave before, which is we are 
waiting to put all this together, I would really suggest that 
you begin a razor-like focus on the waste, fraud, and abuse, 
because it is going to be very difficult to get more dollars in 
this environment without understanding that we are spending 
every dollar the way it should be spent.
    Dr. Roessel. Yes, Senator.
    The Chairman. Thank you very much, Senator Heitkamp.
    Senator Franken?
    Senator Franken. Thank you.
    Thank you, Chairwoman Jones, for being here. I would like 
to pick up with your testimony and tie it to what Senator 
Heitkamp started with.
    You talked about a student at the Bug-O-Nay-Ge-Shig School 
saying, I don't want this for me, I want it for my siblings. 
This child knew kind of where he stood in relation to what 
Senator Heitkamp said, that you can tell Indian kids you are 
not going to have what other kids in the United States have, 
what you see on TV, because you are on an Indian Reservation.
    And I feel like we are at a catch-22. How do you attract 
teachers to teach, high-skilled teachers to teach on a BIE 
school when housing is bad, when you don't want to bring your 
own kids into an environment where there is so much 
unemployment and drug use and domestic violence?
    And I agree with Senator Heitkamp that we have failed you 
and that child. We can't say, well, we are just not going to 
put any more funding in until you prove that you will 
absolutely not waste a dime. That is a catch-22. That is 
basically saying, well, in that case, we will never do it.
    You know that I have been talking about the Bug-O-Nay-Ge-
Shig School for quite a while. That school needs to be torn 
down, am I right, and a new school built there? Am I right?
    Ms. Jones. Yes, sir.
    Senator Franken. And you are doing great things there. You 
have an immersion language program there, and I think that is a 
beginning of all of this, which is having the pride in your 
culture that these kids get. And I was glad, with Senator 
Murkowski, in the education bill to get language immersion 
funds to you. But tell me what does a starting teacher make at 
Leech Lake, do you know?
    Ms. Jones. I think approximately, it is less than $40,000 a 
year for a starting wage for one of our teachers over there. 
And part of that, it is really hard to be able to recruit 
individuals. Some of the things that I was looking at is a lot 
of it is you try to recruit individuals to a facility that it 
is almost incapable of teaching at.
    One of the examples that I talked about in my testimony is 
the science classroom. You walk in there, the students can't do 
any hands-on labs at all. So we are lacking any learning 
experiences there, where they just have to read about it or 
they have to watch a video about it. So for an educator coming 
in, trying to give that experience to a child, they can't. It 
is really hard to be able to recruit individuals when we can't 
have the proper tools or equipment in our classroom in order to 
educate our youth.
    Senator Franken. Yes. If you are a chemistry teacher and 
you see your science room, you can't do lab.
    What I am frustrated with is sort of the idea that we have 
to look at the organization.
    Dr. Roessel, it sounds like you have improved remarkably 
the number of children who are succeeding, even though you are 
building on some very low numbers. But we can't wait until you 
prove that you have solved every problem until we start funding 
you. We need to build you a new school there with a lab in it.
    And I want to just say that you have done a remarkable job, 
because when I took this last tour of the school, I was very 
impressed with the teachers there. I was impressed with the 
engineer for the school, who it is like a comedy, a tragic 
comedy, but it is like a comedy in what this guy does to jerry-
rig stuff at this school.
    Thank you for being here. You know that I asked Secretary 
Jewell. Describe that.
    Is it okay if I go a couple minutes?
    The Chairman. Please, go ahead.
    Senator Franken. I asked the Interior Secretary, before she 
was Interior Secretary, when she was nominated, I told her 
about the Bug-O-Nay-Ge-Shig School, and I urged her, every time 
I see her, no matter when I have seen her, I talked about this 
school, and she finally went. Tell me about that visit.
    Ms. Jones. Yes, I want to thank you for sending the invite 
out for her. I know the Minnesota delegation also kind of 
pushed that effort as well.
    In August, Secretary Sally Jewell and Assistant Secretary 
Kevin Washburn came up to the school there. It was quite the 
opportunity to have them go out there to visit the school. 
Because she mentioned that listening to testimony did not do 
justice for any of it, that the school is in even worse 
condition than she even imagined it to be. We were fortunate 
enough she actually stayed with the visit an hour longer to 
talk to the students, to get their input of what it is like 
over there.
    We had some of the parents and school board members there, 
and we had a grandparent telling them that, well, I have to 
pull my child out of school after they reach the middle school 
because he has asthma problems; they can't be in a facility 
with a high school like that because of health conditions with 
it.
    So I think it was a real powerful message to Secretary 
Jewell for being able to visit the school and actually 
visualize it and hear the testimonies from the students and the 
faculty themselves, because they are the ones that have to go 
over there day in and day out.
    During the winter months they are wearing jackets all day, 
they are wearing gloves. Any time that the weather gets a 
little too cold, we have to close our schools, which also 
causes a problem with our children learning because now they 
are not attending schools.
    Senator Franken. Is it ever cold in northern Minnesota?
    Ms. Jones. Oh, it has been brutally cold.
    Senator Franken. I am way over my time, but my only regret 
about Secretary Jewell going there is that she went in August. 
I mean, there are blankets over every door because it is so 
cold in the winter, and I think it is a disgrace.
    Thank you.
    The Chairman. Thank you very much, Senator Franken, and 
thank you, Chairwoman Jones, for your thoughtful answers on 
those questions.
    A couple of questions. I wanted to start with Dr. Roessel.
    In his written testimony, Dr. Lewis, and correct me if I 
don't have this right, Dr. Lewis, suggested that the Bureau of 
Indian Education should have authority over facilities and 
construction matters. But he notes that the current plan for 
the Bureau of Indian Education reorganization doesn't really 
extend that authority and that, as a result, tribal schools are 
going to have to continue dealing with multiple agencies on 
school facilities and construction issues, which have caused 
the kind of delays in the past that you have experienced.
    So how is the secretary's reorganization plan going to 
expedite and streamline the school construction and facility 
maintenance programs, which is a concern that I have heard from 
Dr. Lewis?
    Dr. Roessel. Thank you, Chairman. The school facilities 
issue with the reorganization, that oversight will fall under 
BIE in our proposal, so we would, I would have, BIE would have 
oversight over the school facilities operations and 
maintenance. Now, the school construction area is actually in a 
different line item, and that is still within the division of 
Deputy Assistant Secretary for Management.
    So the oversight, what we would have at BIE, we would have 
people that know education facilities and can help drive the 
budget in terms of doing the research, doing the background to 
say, okay, this is what we need in projections for next year 
for new schools, this is our facility condition index, and try 
to drive budgets so that we can have a plan. We brought on 
board as part of the American Indian Education Study Group 
Marilee Fitzgerald, who used to be the Director for the 
Department of Defense Schools. She has been helping us to a 
spot where we can develop a six-year, seven-year plan for 
construction.
    But to answer the question, the facilities would fall under 
BIE, and the O&M would fall under BIE.
    The Chairman. Dr. Lewis, do you think that is adequate?
    Dr. Lewis. I strongly agree with that. That is what we need 
to do. Right now it is very confusing with the BIA overseeing 
facilities and BIE running the academic portion. It needs to be 
transferred over so that the educators can have a stronger 
voice as to what is best for children in the classroom. 
Currently, that is not the case.
    The Chairman. And then, Dr. Roessel, thinking about the 
written testimony that we have from Ms. Emrey-Arras, she 
identified several management problems which compound the 
current challenges in overseeing how money is spent, as well as 
academic improvements; lack of knowledge and communication 
between the Bureau of Indian Education, other offices 
responsible for various management functions for the schools.
    She also pointed out a lack of expertise in training of 
Bureau of Indian Education employees. So how is the Bureau 
addressing these issues, including developing and implementing 
strategic plans in your reorganization to improve coordination 
among agencies?
    Dr. Roessel. In response to the strategic plans and 
communication plans, we have one, and have had it on our Web 
site now for about a year. The reason it is not finalized is we 
are still in tribal consultation. So until we are through with 
that, which, again, we are ending tribal consultation on Friday 
and then we have a comment period for an additional week on the 
22nd, then we can take all those comments and develop; and any 
kind of comments that are specific to the strategic plan or the 
communication plan will be listened to and then will be 
incorporated. So those two areas.
    In terms of oversight, I come back to the same process: we 
are defining the roles and responsibilities in a way so that we 
are separating out the education portion with the management 
and administrative portions, making very clear roles and 
responsibilities. That is how we are addressing it.
    In the secretarial order we have a development of a school 
operations division that will oversee contracts and grants, 
that will oversee IT, that will oversee HR, that will oversee 
budget execution and formulation. That we have had to go 
outside of BIE to get done. Now it will be within BIE, so then 
BIE could be held accountable for everything dealing with 
school education.
    The Chairman. Ms. Emrey-Arras, your written testimony 
highlights misspending of school funds and the Bureau of Indian 
Education's limited oversight of school spending. You talk 
about the agency didn't use a risk-based approach for 
monitoring spending, lacked written procedures to oversee 
spending. They are undergoing this reorganization now, which 
presumably, hopefully, from everybody here on the panel, would 
include improved spending oversight.
    Do you have some specific recommendations that have for 
improving spending oversight in the context of their 
reorganization plan?
    Ms. Emrey-Arras. I think it goes to the workforce analysis, 
to make sure that you have people with the right financial 
skills looking at audits. We had people who were responsible 
for looking at single audits tell us that they were not 
auditors, they were not accountants, and they didn't know how 
to look at the documents, which really presents issues in terms 
of accountability and oversight.
    I think, going forward, it is really critical that the 
folks who are in charge of making sure that the money is well 
spent have the skills to really oversee it.
    The Chairman. Thank you.
    Then, Dr. Lewis, final question. In your written testimony, 
several times you mention that the Navajo Nation wants to 
exercise greater sovereignty in education. I think you noted 
that 17 school districts, 244 schools operate on the Navajo 
Reservation. That is quite a number. And with multiple school 
systems on your Reservation, there is really not a uniform 
educational system that allows for consistent regulatory 
oversight. So can you expand upon how your recommendation that 
your Tribe be designated as a State Education Agency, how that 
would provide some consistent oversight and improve the 
educational outcomes for the students?
    Dr. Lewis. Mr. Chair, members of the Committee, the Navajo 
Nation has a law called Navajo Sovereignty in Education, passed 
in 2005. The goal of that law is to make our Department of Dine 
Education have a similar status as a State education 
department, similar power, similar authority. The Navajo Nation 
is sovereign, like any State.
    As an SEA, State Education Agency, we would be able to 
exercise regulatory authority over schools regarding academic 
accountability. At this point, the Navajo Nation is not 
recognized with this authority, and that is why tribally-
controlled schools continue to fail, because we have a 
fragmented system encompassing three States with different 
standards.
    So the whole intent of us getting involved in the education 
of the 32 BIE schools is to have a uniform set of standards. 
The department would serve as the regulatory authority to make 
sure that the content standards are there, the policies are 
there so that schools can use it effectively. The Navajo Nation 
did not have an opportunity from the beginning of time. 
Instruction, this education program that we have in our Nation; 
it was brought in by other governments. Now we find out that it 
is not all that great because of the high numbers of failures 
in academic achievement and dropout rates and so forth.
    So we are determined in building a Navajo education system 
where culture and value is infused through the system. We 
strongly believe that is the key to our survival. If a child 
understands their roots, their culture, their way of life, they 
will have a better understanding about the beauty of life, the 
sacredness of life, and learning will become natural. So that 
by the time they graduate from high school, they know their 
destiny, they are full of confidence that they can enter the 
workforce or into higher education. Currently, the system fails 
these students because of the fragmented system and because of 
the way that it is structured.
    Through this initiative that we are working on, in 
partnership with the BIE, we want to build a system that is 
connected, where Head Start, elementary, secondary, and higher 
education are aligned, knowing that when a child enters Head 
Start, we know that in 13 years they will be graduating at 
proficiency level in math and science.
    As of the moment, these students struggle. They graduate 
with a high school diploma, but they don't score high enough on 
ACT or SAT to enter into higher education; therefore, they 
become a part of the problem. And we are hoping that this whole 
system, when we align it in our way, the way we understand our 
children's educational needs, we will see better results.
    So being recognized as a State Education Agency is 
critical. We will develop the assessment tool to make sure that 
the academic learning is measured properly so that we are at 
the same level as a State educational program.
    Thank you, sir.
    The Chairman. Well, thank you very much for your answer.
    I want to thank all four of you for being here to testify. 
I know Senator Tester was trying to get back. He had an 
unavoidable conflict, but he may have some written questions, 
as may some of the other members of the panel, so the hearing 
record is going to be open for two weeks. I want to thank you 
again for your time and your testimony.
    The hearing is adjourned.
    [Whereupon, at 3:38 p.m., the Committee was adjourned.]

                            A P P E N D I X

Prepared Statement of John Yellow Bird Steele, President, Oglala Sioux 
                                 Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Prepared Statement of the National Indian Education Association
Introduction
    Thank you for this opportunity to submit testimony regarding the 
Committee's May 13, 2015 hearing on the Bureau of Indian Education's 
(BIE) organizational challenges. Founded in 1969, the National Indian 
Education Association (NIEA) represents Native students, educators, 
families, communities, and tribes. NIEA's mission is to advance 
comprehensive educational opportunities for all American Indians, 
Alaska Natives, and Native Hawaiians throughout the United States. NIEA 
advocates for educational excellence by working to ensure that students 
receive equal access to high-quality academic and cultural education 
models. By serving as the critical link between our communities and the 
diverse array of institutions that serve our students, NIEA holds all 
accountable for improving achievement.
The State of Emergency in Native Education
    Native education is in a state of emergency. As Interior Secretary 
Sally Jewell has stated, ``Indian education is an embarrassment to you 
and to us. It is not for the lack of desire. This [the BIE] is the one 
part of the Department of the Interior that deals directly with 
services to children. We know that self-determination and self-
governance is going to play an important role in bringing the kind of 
academically rigorous and culturally appropriate education that 
children need.'' \1\
---------------------------------------------------------------------------
    \1\ Hearing before the Committee on Indian Affairs, S. Hrg. 113-92 
(May 15, 2013).
---------------------------------------------------------------------------
    The Department of Education has recently applauded the improvement 
in nation-wide graduation rates, particularly the improvement among 
students of color. BIE students, however, are not experiencing the 
progress in graduation rates that the rest of the country is 
witnessing, with Native graduation rates often over around 50 percent 
in many states. Native students also continue to lag behind their peers 
on other important educational indicators.
The Trust Responsibility for Native Education
    Established through treaties, federal law, and U.S. Supreme Court 
decisions, the federal government's trust responsibility to tribes 
includes the obligation to provide parity in access and equal resources 
to all American Indian and Alaska Native students, regardless of where 
they attend school. The federal government's trust responsibility in 
the field of Native education is a shared responsibility between the 
Administration and Congress for federally recognized Indian tribes.
    To the extent that measurable trust standards in Native education 
can be evaluated, NIEA suggests this Committee refer to the 
government's own studies encompassing Native test scores, treaty-based 
appropriation decreases, and Government Accountability Office (GAO) 
Reports, among other reports, which illustrate continued failure to 
uphold the trust responsibility and effectively serve our students. 
This is unacceptable because only through equal educational 
opportunities can we expect our future generations to be prepared for 
academic achievement and, consequently, successful in college and 
careers.
Bureau of Indian Education Schools
    There are only two educational systems for which the federal 
government is directly responsible: Department of Defense (DOD) schools 
and federally operated and federally funded tribal schools. BIE 
schools, however, lag far behind DOD schools in funding, school 
construction, and student achievement. While DOD schools are being 
renovated and remodeled, schools within the BIE system are woefully 
outdated and, in some cases, dangerous for students and staff. As 
America's most vulnerable population, Native students should have equal 
access to resources and opportunities. Congress should fulfill its 
responsibility to Native students by remedying the disparities between 
these two federally operated school systems.
    Over 60 BIE schools currently rated in ``poor'' condition, and 
construction issues continue to put Native students at an educational 
disadvantage. Meanwhile, GAO reports have found that better school 
facilities are associated with better student outcomes. \2\ We urge 
support for a long-term school replacement plan that would set out 
priorities for school construction and replacement over the next 40-60 
years and that would include a plan for adequate maintenance funding. 
Accountability, in addition to funding, is required to ensure that 
BIE's school construction funds are used to effectively and efficiently 
improve the educational opportunities of Native students. Therefore, we 
also urge increased oversight over BIE school construction funds.
---------------------------------------------------------------------------
    \2\ See GAO, School Facilities: Physical Conditions in School 
Districts Receiving Impact Aid for Students Residing on Indian Lands, 
GAO-10-32 (Oct. 29, 2009).
---------------------------------------------------------------------------
    BIE schools also face enormous challenges regarding their staffing 
and operation. \3\ Currently, over 40 percent of regional positions are 
vacant. Additionally, employees are often not placed in positions for 
which they have the necessary skills. Communication is lacking, as 
school staff are often confused about who to contact within the BIE 
when they have problems. Finally, as the Government Accountability 
Office has noted, the BIE lacks staff with the expertise required to 
oversee school expenditures. These staffing and administration issues 
must be overcome, and increased oversight must be provided, for the BIE 
system to work effectively and efficiently for Native students.
---------------------------------------------------------------------------
    \3\ See, e.g., GAO, Bureau of Indian Education Needs to Improve 
Oversight of School Spending, GAO-15-121 (Nov. 2014).
---------------------------------------------------------------------------
Recommendations for Reform
    NIEA is generally supportive of BIE reform. However, we urge 
transparency in the design and execution of the reform in order to 
include tribal participation, facilitate congressional oversight, and 
ensure that reform fulfills the federal government's trust 
responsibility regarding delivery of trust- and treaty-based 
educational rights. See NIEA Resolution #2014-11. NIEA has several 
recommendations regarding how reform can be undertaken in a way that 
honors the federal government's responsibilities, respects the 
government-to-government relationship between tribes and the United 
States, and achieves much-needed progress regarding our Native 
students' education.
Keeping the BIE Within the Department of Interior
    Although reform is needed, it is essential that Native education 
remain the purview of the BIE and that BIE remains housed within the 
Department of Interior, which has extensive experience carrying out the 
United States' trust responsibility. Tribal leaders have repeatedly 
stated that the BIE should stay within the Department of Interior. NIEA 
joins tribes in strongly opposing any effort to move Native education 
to the Department of Education. However, we look forward to follow-up 
hearings to determine what the BIE and the Department of Education are 
doing to work together to address the needs of Native students.
Follow-up Hearings With Both BIA and BIE Officials
    The BIE is extremely limited in what it can do without its partners 
in the Bureau of Indian Affairs (BIA). A number of the areas that the 
GAO has identified as needing reform are areas that involve BIA 
responsibilities, operations, and staff. \4\ Therefore, follow-up is 
needed that involves both BIE and BIA officials in order to facilitate 
dialogue regarding BIE reform and to determine how communication can be 
strengthened between the BIE and BIA.
---------------------------------------------------------------------------
    \4\ See GAO, Indian Affairs: Better Management and Accountability 
Needed to Improve Indian Education, GAO-13-744 (Sept. 2013).
---------------------------------------------------------------------------
Stated Authority
    Tribes have repeatedly questioned whether BIE authority to move 
forward with reform based on the Tribally Controlled Schools Act (P.L. 
100-297). NIEA has requested an opinion from the Department of 
Interior's Office of the Solicitor on this matter. However, an opinion 
has not yet been provided.
Facilities and Maintenance Funding
    As stated, over 60 BIE schools currently rated in ``poor'' 
condition. Native children are learning in buildings that are crumbling 
around them. We appreciate the attention that has been paid to the 
dilapidated Bug-O-Nay-Ge-Shig school. This school is, unfortunately, 
representative of the significant problems facing schools that linger 
on the BIE's school construction list. Additional funds for facilities 
and maintenance are desperately needed so that the BIE can reduce the 
construction and repair backlog, addressing schools in the order they 
appear on the BIE construction list so that schools that have long 
awaited facilities funding will not continue to be neglected. We also 
urge the creation of a long-term school replacement plan and increased 
oversight over school construction funds to ensure the effective 
administration of federal funds.
BIE-Focused Budget Advisory Committee
    Additionally, we recommend the formation of a tribal budget 
advisory committee focused specifically on BIE issues to advise the 
Department of Interior on educational issues. Although the Tribal-
Interior Budget Council (TBIC) provides an avenue for tribal input on 
budget issues, TBIC focuses on all issues relevant to Indian Country 
and therefore lacks the education-specific knowledge required to help 
transform Native education. A tribal education advisory committee would 
form an important point of contact for tribal leaders and tribal 
educators. Such a committee would also be well positioned to make 
recommendations that would address both BIE and BIA educational 
activities.
Continued Oversight Over the Reform Process
    As NIEA has previously stated, and has expressed in Resolution # 
2014-11, continued congressional oversight over the BIE reform process 
is necessary. In particular, the proposed offsets that the Department 
of Interior has identified in order to pay for the BIE redesign should 
be made public. NIEA has requested this information, but it has not yet 
been provided. Additionally, now that we are a year into the BIE 
redesign, the BIE should be required to provide more detailed plans 
regarding the reform as well as a timeline for implementation. This 
timeline should include a public list of the proposed closings of line 
offices. As the reform moves forward, details of the reform should 
continue to be made public, tribal input should be prioritized, and 
congressional oversight should continue.
Conclusion
    We thank the Committee for holding this oversight hearing. The 
current BIE reform process has the potential to make a meaningful 
difference in the lives of Native students. We urge Congress and the 
Administration to use this opportunity to work closely with tribes. 
NIEA firmly believes that self-governance in education is the answer to 
the current crisis in the Native education system. Tribes have 
demonstrated time and time again that we are better equipped to address 
the needs of our own peoples. Working together, with bipartisan support 
from Congress, we are confident that BIE can be reformed in a manner 
that furthers tribal self-determination in education.
                                 ______
                                 
  Prepared Statement of Hon. Erma J. Vizenor, Chairwoman, White Earth 
                             Band of Ojibwe
    Honorable Chairman John Barrasso and members of U.S. Senate 
Committee on Indian Affairs, my name is Erma J. Vizenor, Chairwoman of 
the White Earth Nation in Northern Minnesota. Miigwech--thank you--for 
the opportunity to submit this testimony regarding the Bureau of Indian 
Education as you look at improving educational opportunities and 
outcomes for Indian children.
    The Bureau of Indian Education, as we all know, is responsible for 
the success of our Indian children enrolled in the 185 elementary and 
secondary schools which it oversees. The outcomes of these 41,000 
students is poor, and something needs to change because the outcomes 
impact our children, our families and our future.
    Communication with the BIE has been fragmented. We understand that 
is partly due to the turnover of key positions and positions left 
vacant for several months. However, in order to effectively and 
efficiently provide services to our students, communication with BIE 
officials must be remedied. As an example, during the several years it 
took for White Earth to receive school replacement funding, our staff 
and I struggled to communicate effectively with (BIE and BIA) staff in 
Albuquerque and DC. Staff turn-over resulted in frustration when 
communication and information changed as staff changed--a factor in the 
number of years it took for replacement funding.
    Fragmented communication also happens when it comes to the outcomes 
of our children. How can we, as a Tribal Nation, do what is best for 
our students when we receive notification of Adequate Yearly Progress 
based upon test scores from two years prior? We cannot. How can the BIE 
say its doing its job when the expectation of adequate progress and 
achievement is far lower than that of the State Education Agencies? We 
want the best for our students--and if the best means we have to meet 
higher standards, then that is what we should have.
BIE School Funding
    Circle of Life Academy is a tribally-controlled K-12 BIE school 
just on the outskirts of White Earth Village. We have 130 students 
attending from across the reservation. Our school is underfunded, but 
we still look for creative and innovative ways to help our students 
succeed.

         This year, for the first time ever, we have five students who 
        are taking advantage of the College in the High School/PSEO 
        program. The ability to offer these courses came through a 
        partnership with White Earth Tribal and Community College. By 
        taking care of transportation issues, we were able to offer 
        students opportunities to take advanced coursework at our 
        school and at WETCC to challenge them academically. One of the 
        students currently attending was on the verge of dropping out. 
        We were able to work with her and the college; she is now 
        enrolled in the courses she needs and is on track to graduate 
        on time.

    Total per pupil funding for BIE students is under $6,000, in 
comparison, per pupil funding for students in Minnesota's public 
schools is $10,700 ($13,000 for students in the metro areas). Our BIE 
students must be funded and treated equally. We must realize an 
increase in per pupil funding so we can provide the same opportunities 
and learning environments students and teachers are afforded in schools 
throughout the state and nation.
    Indian School Equalization Program (ISEP) funding must include 
additional funding opportunities in the base funding. The Federal 
Government's additional competitive grant funds are rarely awarded to 
smaller Tribes or to Tribes with small BIE school enrollment. These 
competitive grant opportunities, such as the Demonstration Grant for 
Indian Children, must have a set-aside for 41,000 students in our BIE 
schools.
    ISEP base funding also does not consider student, instructional and 
safety support personnel, such as school counselors, mental health 
therapists, school nurses and general education paraprofessionals. 
Technology and technology support are also left unfunded, thus system 
upkeep, maintenance and replacement relies on the availability of ISEP 
funds and the internal prioritization of such.
    The following needs have been identified but are not feasible with 
current funding:

         1. An after school/extended year program where we could offer 
        academic support and credit recovery options to keep students 
        on track for graduation and to improve reading and math skills.

         2. Instructional coaches and Reading/Math specialists to 
        improve our pyramid of interventions.

         3. Adjusted salary schedule to make us competitive with nearby 
        districts so that we can recruit and retain highly qualified 
        and talented teachers

         4. Preschool program

         5. Intensive professional development during the summer and 
        year for teachers in high-leverage teaching strategies.

           A group of four junior high Circle of Life Academy students 
        were at high-risk for having to be retained because of their 
        lack of academic progress due to having a difficult time 
        regulating their emotions and leaving class when they were 
        upset. These young girls were screened and identified as having 
        elevated symptoms of depression and PTSD. This qualified them 
        for an evidence-based therapy group called CBITS (Cognitive 
        Behavioral Interventions for Trauma in Schools), which is 
        offered to students at school.

           The girls worked hard during their 10-week group therapy 
        sessions; they learned how to relax their bodies when they felt 
        stress and triggers coming on, how to identify their feelings 
        in times of real or imagined stress, and several other stress 
        reduction techniques. The group also incorporated Native 
        American cultural practices to help them feel connected to 
        their culture throughout the group process.

           Post-group assessments showed a decrease in depression and 
        PTSD symptoms. In addition, there was an increase in academic 
        scores and none of the students ended up being retained. One 
        student stated ``I can't believe I can actually sit through a 
        class period and be able to chill myself out all by myself; I 
        might actually be able to stay in school and graduate now!'' It 
        is evident that the skills learned in this therapy group were 
        able to transcend into the classroom, seeing positive results 
        in many areas.

Early Childhood Funding
    Funding for quality Early Childhood Programs is vital. We are all 
aware of the impacts of investing in early childhood programs. Schools, 
programs and agencies on White Earth provide services to approximately 
500 children ages 0-5. We have another 250 children not receiving any 
type of early childhood programming. The Bureau does not fund pre-
school programming. We ask that you continue to support increased 
resources for Early Childhood programs so we can bring our children 
into the school before kindergarten and provide them that key 
opportunity to succeed.
Facilities
    All students deserve to receive a quality education in a safe 
environment. The BIE's oversight and management of school replacement, 
repair and improvement has been poor. It took White Earth over 12 years 
to receive funds for a replacement school. During that time, our 
students attended school in a building that leaked every time it 
rained, had poor foundation issues and several other citations--making 
it an unsafe and unhealthy environment for students and staff. It is my 
understanding that there are other BIE schools throughout the nation 
that are in the same disrepair. This is not acceptable.
    During the post-award and planning stage for the new Circle of Life 
Academy facility, I was quite dismayed at the Bureau's commitment to 
building a facility to meet our needs. The BIE only approved the 
construction of six classrooms, which would force us to provide 
combined classrooms from 1st through 12th grades. We found that 
unacceptable and committed $4,000,000 of our own funds so that each 
grade would have its own classroom. This was accepted by the Bureau, 
only to be informed that Operation & Maintenance (O&M) funds for the 
additional classrooms would not come from the BIE. This is an injustice 
to Indian students.
    I am pleased that we have a new facility, and although it is much 
smaller than what we wanted, it is a grand improvement from the 
condemned building we were using prior. It is of utmost importance that 
the BIE address the needs of construction, repair and maintenance for 
all schools--nationwide.
Position Paper
    The creation of the Tribal Nations Education Committee was endorsed 
by both the Minnesota Chippewa Tribe and the Minnesota Indian Affairs 
Council in 2007. The Tribal Nations Education Committee consists of 
representatives appointed by each of the eleven Tribal Nations in 
Minnesota, representatives from the Twin Cities Metro area and Greater 
Minnesota, and a representative from the Minnesota Chippewa Tribe. The 
TNEC is recognized in State statute 124d.79 subd. 4 as the body with 
which the Minnesota Department of Education must consult (affirming the 
government-to-government relationship). Many of the TNEC members are 
here today.
    Each year, the Tribal Nations Education Committee prepares a 
Position on Education which outlines priorities in Indian Education 
from birth through post-secondary education. A copy of the Position on 
Education is attached for you today to read and use as a guide to 
making a difference in Indian Education not only in Minnesota, but 
nationwide as well.
    Attachment:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
              Association of Community Tribal Schools, Inc.
                                 Sicangu Lakota Nation, May 4, 2015
Hon. John Barrasso, Chairman
Senate Committee on Indian Affairs
838 Hart Senate Office Building
Washington, DC 20510

    Chairman Barrasso,

    This letter is to express our concern for the Bureau of Indian 
Education's attempt to re-organization, AGAIN.
    The BIE does not need to move valuable federal positions and other 
financial resources from poor reservations and move them to urban 
areas. Maybe 6 of the 15 Education Resource Centers could be considered 
on Indian lands.
    The BIE does not need to continue dictating what is best for tribal 
children. The 5 pillars of the reform effort use educational beliefs 
that continue acculturation and assimilation of the tribal learners.
    The Study Group and Blueprint is moving forward even when the 
majority of tribes and tribal schools do not support the effort of 
tribal control.
    The 50+ positions for the ADD-Tribally Controlled Schools could be 
reduced in half. If the Tribally Controlled Schools Act is functioning 
properly, the schools are required to deliver 4 reports and an audit to 
the tribes and then to the BIE. The processing and monitoring of these 
requirements should not take over 50 staff to process.
    The real paternalistic control over tribal school is NCLB and other 
federal legislation which dictates what is best for tribal learners.
        I am willing to provide more specifics, if interested.
                                        Dr. Roger Bordeaux,
                                                Executive Director.
    Attachments:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
          BIE Funded Schools Replacement Schedule--March 2015
    Schools are ranked based upon their Facility Condition Index 
(FCI)--Worse to Best

------------------------------------------------------------------------
      No.                   School                     Condition
------------------------------------------------------------------------
1                Crow Creek Sioux Tribal      Poor
                  Elementary School.
2                Crow Creek High School.....  Poor
3                Little Singer Community      Poor
                  School.
4                Cove Day School............  Poor
5                Bug-O-Nay-Ge-Shing School..  Poor
6                Lukachukal Boarding School.  Poor
7                Richfield Residential Hall.  Poor
8                Dzilth-na-o-dith-hle         Poor
                  Community School.
9                He-Dog.....................  Poor
10               San Simon School...........  Poor
11               Red Rock Day School........  Poor
12               Greasewood Springs           Poor
                  Community School.
13               Cottonwood Day School......  Poor
14               Wounded Knee District        Poor
                  School.
15               Na'Neelzhiin Ji'Olta         Poor
                  (Torreron).
16               Rock Point Community School  Poor
17               Shonto Boarding School.....  Poor
18               John F. Kennedy Day School.  Poor
19               Tonalea/Redlake Day School.  Poor
20               Jemez Day School...........  Poor
21               Laguna Elementary School...  Poor
22               Little Wound/Kyle..........  Poor
23               Rosebud Elementary School..  Poor
24               Greyhills High School......  Poor
25               Naa tsis aan (Navajo         Poor
                  Boarding School).
26               Rock Creek Grant School....  Poor
27               Aztec Dormitory............  Poor
28               Nazlini Boarding School....  Poor
29               Coeur D'Alene Tribal School  Poor
30               Crystal Boarding School....  Poor
31               Chinle Boarding School.....  Poor
32               Te Tsu Geh Oweenge           Poor
                  (Tesuque) Day School.
33               Sicangu Owayawa Oti          Poor
                  (Rosebud Dormintory).
34               Spring Creek School........  Poor
35               Mandaree Day School........  Poor
36               Gila Crossing Day School...  Poor
37               Duckwater Shoshone           Poor
                  Elementary School.
38               Hotevilla Bacavi Community   Poor
                  School.
39               Black Mesa Community School  Poor
40               Tse'ii'ahi' (Standing Rock)  Poor
                  Community School.
41               Tonono O'Odham High School   Poor
                  (Papago).
42               Okreek School..............  Poor
43               Little Eagle Day School....  Poor
44               To'haali' (Toadlena)         Poor
                  Community School.
45               American Horse School        Poor
                  (Allen).
46               Alamo Navajo School........  Poor
47               Theodore Jamerson            Poor
                  Elementary School.
48               Choctaw Central............  Poor
49               Quileute Tribal School.....  Poor
50               Santa Rosa Boarding School.  Poor
51               Dibe Yazhi Habitiin Olta,    Poor
                  Inc (Borrego Pass).
52               Riverside Indian School....  Poor
53               Moencopi Day School........  Poor
54               Theodore Roosevelt School..  Poor
55               Casa Blanca Day School.....  Poor
56               Rocky Ridge Boarding School  Poor
57               Atsa Biyaazh Community       Poor
                  School (Shiprock).
58               Pierre Indian Learning       Poor
                  Center.
59               White Shield School........  Poor
60               Cheyenne Eagle Butte School  Poor
61               Hopi Day School............  Poor
62               Beatrice Rafferty School...  Poor
63               Dennehotso Boarding School.  Poor
64               Taos Day School............  Poor
65               Pinon Community School.....  Poor
66               Santa Rosa Ranch School....  Poor
67               Crazy Horse School.........  Poor
------------------------------------------------------------------------


       Fair Condition Schools need to be replaced within 20 years
------------------------------------------------------------------------
      No.                   School                     Condition
------------------------------------------------------------------------
68               Ahfachkee Day School.......  Fair
69               Aneth Community School.....  Fair
70               Salt River Day School......  Fair
71               Pine Springs Day School....  Fair
72               Hunters Point Boarding       Fair
                  School.
73               Laguna Middle School.......  Fair
74               Indian Island School.......  Fair
75               Jones Academy Dormitory....  Fair
76               Lower Brule Day School.....  Fair
77               Keams Canyon Boarding        Fair
                  School.
78               Sequoyah High School.......  Fair
79               Noli School (CA)...........  Fair
80               Northern Cheyenne Tribal     Fair
                  School (Busby).
81               Havasupi School............  Fair
82               Pine Hills School & Rama     Fair
                  Dorm.
83               Kickapoo Nation School.....  Fair
84               Oneida Tribal School.......  Fair
85               Joseph K Lumsdem Bahweting   Fair
                  Anishnabe School.
86               Chief Leschi School System.  Fair
87               Many Farms High School.....  Fair
88               Chilchinbeto Community       Fair
                  School.
89               Ohkay Owingeh (San Juan)     Fair
                  Community School.
------------------------------------------------------------------------


   Good Condition Schools need to be replaced within the next 30 to 40
                                  years
------------------------------------------------------------------------
      No.                   School                     Condition
------------------------------------------------------------------------
90               Blackwater Community School  Good
91               H'anaa'dii Community School/ Good
                  Dormitory, Inc.
92               Cibecue Community School...  Good
93               Indian Township School.....  Good
94               St Francis Indian School...  Good
95               Turtle Mountain Elementary   Good
                  & Middle School.
96               Pine Ridge (Oglala           Good
                  Community School).
97               Chemewa Indian School......  Good
98               Lake Valley Navajo School..  Good
99               Two Eagle River School.....  Good
100              Eufaula Dormitory..........  Good
101              Tlis Nazba Community School  Good
102              Sherman Indian High School.  Good
103              Leupp School, Inc..........  Good
104              Miccosukee Indian School...  Good
105              Menominee Tribal School....  Good
106              Standing Rock Community      Good
                  School.
107              Kinlani Bordertown           Good
                  (Flagstaff) Dormitory.
108              Sante Fe Indian School.....  Good
109              Twin Butte Day School......  Good
110              Marty Indian School........  Good
111              Tucker Day School..........  Good
112              Jicarilla Dormitory........  Good
113              Tuba City Boarding School..  Good
114              Sho-Ban School District No.  Good
                  512.
115              To'haali' (Canoncito)......  Good
116              Flandreau Indian School....  Good
117              Lac Courte Oreilles Ojibwa   Good
                  School.
118              Chi-Ch'il-Tah/Jones Ranch..  Good
119              Pearl River Elementary.....  Good
120              Hopi Junior/Senior High      Good
                  School.
121              Sky City Community School    Good
                  (Acomita).
122              Rough Rock Community School  Good
123              Kin Dah Lichi'I'Olta         Good
                  (Kinlichee).
124              Meshwaki (Sac & Fox)         Good
                  Settlement School.
125              Ch'ooshgai (Chuska)          Good
                  Community School.
126              San Ildenfonso Day School..  Good
127              Nenahnezad Boarding School.  Good
128              St Stephens Indian School..  Good
129              Tate Topa Tribal School      Good
                  (Four Winds).
130              Fond du Lac Ojibway School.  Good
131              Conehatta Elementary School  Good
132              Seba Dalkai Boarding School  Good
133              Mariano Lake Community       Good
                  School.
134              Wa-He-Lut Indian School....  Good
135              Pyramid Lake High School...  Good
136              Circle of Nations            Good
                  (Wahpeton).
137              Chitimacha Day School......  Good
138              Hannahville Indian School..  Good
139              Tiyospaye Topa School......  Good
140              Boque Chitto Day School....  Good
141              Paschal Sherman Indian       Good
                  School.
142              Standing Pine Day School...  Good
143              Lummi Tribal School System.  Good
144              Holbrook Dormitory, Inc....  Good
145              T'siya Elementary & Middle   Good
                  School (Zia Day).
146              Baca/Dlo'ay' Azhi Community  Good
                  School.
147              Dunsieth Day School........  Good
148              Beclabito Day School.......  Good
149              Bread Springs Day School...  Good
150              Cherokee Central High        Good
                  School.
151              Cherokee Elementary School.  Good
152              Chickasaw Children's         Good
                  Village.
153              Circle of Life Survival      Good
                  School.
154              Dilcon Boarding School.....  Good
155              Enemy Swim Day School......  Good
156              First Mesa Elementary        Good
                  School.
157              Isleta Elementary School...  Good
158              Jeehdeez'a Academy (Low      Good
                  Mountain).
159              Kayenta Boarding School....  Good
160              Kaibeto Boarding School....  Good
161              Loneman Day School.........  Good
162              Mescalero Apache School....  Good
163              Muckleshoot Tribal School..  Good
164              Navajo Preparatory School..  Good
165              Nay Ah Shing School........  Good
166              Ojibwa Indian School.......  Good
167              Ojo Encino Day School......  Good
168              Porcupine Day School.......  Good
169              Pueblo Pintado Community     Good
                  School.
170              Red Water Day School.......  Good
171              San Felipe Day School......  Good
172              Sanostee Day School........  Good
173              Second Mesa Day School (Old  Good
                  Polacca).
174              Takini High School.........  Good
175              T'iists'oozi'Bi'lta          Good
                  (Crownpoint Community
                  School).
176              Tiospa Zina Tribal School..  Good
177              Turtle Mountain High School  Good
178              Wide Ruins Community School  Good
179              Wingate Elementary School..  Good
180              Winslow Residential Hall...  Good
181              Yakama Tribal School.......  Good
------------------------------------------------------------------------

     Response to Written Questions Submitted by Hon. Mike Crapo to 
                       Charles ``Monty'' Roessel
Funding
    Question 1. The Department of the Interior has requested lower 
funding for the Indian School Equalization Program (ISEP) to provide 
funds for the Education Turnaround Pilot Program. These funds are used 
for Student Improvement Grants, which are temporary programs and do not 
provide long term funding to selected schools. How can real educational 
reforms be achieved when funding for student improvement relies on 
temporary arrangements?
    Answer. On December 18, 2016, Public Law 114-113, the Consolidated 
Appropriations Act, 2016, was enacted. The FY 2016 budget request 
included funding proposals for investments in education that will yield 
long-term benefits, and those proposals were funded under the enacted 
Consolidated Appropriations Act These benefits include focusing on 
improving instruction, improving teachers through national board 
certification, bringing Internet connectivity into all Bureau of Indian 
Education (BIE) schools, increased funding for tribal grant support 
costs, and assisting tribes with the development of tribal education 
departments. The increased funding for operations and maintenance will 
assist the BIE in improving conditions of BIE facilities.

    Question 2. ISEP funding has steadily decreased over the past 3 
years and BIE schools have to look toward short-term grants and pilot 
programs to provide basic educational services for their students. How 
will the BIE provide Native students with world-class education when 
schools barely have the resources to hire teachers or provide modern 
learning environments?
    Answer. The funding for school operations has gradually increased 
since the sequestration of Fiscal Year 2013. In FY 2013, school 
operations was funded at $493,700,867, in FY 2014 it was funded at 
$518,318,000, and in FY 2015 it was funded at $536,897,000. However, 
the FY 2015 base funding for school operations, the Indian School 
Equalization Program (ISEP), at $386,565,000 is still lower than the FY 
2012 funding at $390,706,867 due to the FY 2013 sequestration and the 
FY 2014 adjustment for the Education Turnaround Pilot Program. The FY 
2016 budget of $391,837,000 restores ISEP funding to an amount greater 
than the pre-sequestration FY 2012 funding.

Organization and Structure
    Question 3. The proposed organizational model as outlined by the 
BIE takes the agency from a ``direct provider of education'' and makes 
it into an ``innovative organization that will serve as a capacity-
builder and service-provider.'' The reorganization activity seems 
counter to this mission statement. For example, the Shoshone-Bannock 
Tribe was one of around 25 schools under one Associate Deputy Director. 
Under the reorganization, that same person has responsibility for 
approximately 90 schools. How does this reorganization actually further 
the goal of providing world-class education, and how does the 
reorganization work to provide better communication and coordination 
with BIE schools when more schools are overseen by the same number of 
personnel?
    Answer. The Department of the Interior's (Department's) proposed 
Education Resource Centers scales up a best practice. Previously, when 
Director Roessel was the Associate Deputy Director for Navajo Schools, 
as a part of a Navajo pilot project for BIE-operated Navajo schools, he 
clarified roles and responsibilities within the field to enable 
specialization and avoid the ``jack of all trades'' approach. In 
addition, he restructured six separate Education Line Offices into one 
school district, established school improvement teams (made up of 
school improvement specialists) and established school clusters 
organized around strengths and weaknesses.
    As a result, the percentage of BIE-operated Navajo schools that 
made ``adequate yearly progress'' (AYP) increased from 29 percent to 55 
percent. Because this approach improved outcomes for students attending 
BIE operated Navajo schools, the Department seeks to apply this 
approach to the entire BIE school system. A key part of the 
restructuring will be clarifying the roles of everyone involved in 
delivering a world-class education to students. The proposed changes 
will result in better support to each tribe so it is better able to 
address student outcomes. These changes in the field will be supported 
by clearer central accountability through the Chief Academic Officer 
and the Chief Performance Officer who will be dedicated to the 
improvement of educational performance and operations.

Reorganization
    Question 4. Regarding the overall structural reforms, I have heard 
concerns that tribes in Idaho and in neighboring states have been 
assigned to an Associate Deputy Director based out of Minneapolis, 
Minnesota. Previously, Idaho tribes had agency resources closer to home 
at an office in Montana. How does moving resources further away from 
tribes the agency serves help BIE students?
    Answer. We considered two major factors in planning the 15 
Education Resource Centers (ERCs): (1) proximity to schools served, and 
(2) needs of the schools. Proximity was based on the school's distance 
to the ERCs, the number of students per school, and the number of 
schools per ERC. At that time, school needs included their adequate 
yearly progress \1\ (AYP status, special education, and other student 
data, and distance from other schools and the number of tribes per ERC. 
The reorganization supports a ratio of ERC staff to BIE-funded schools 
as follows: (1) Associate Deputy Director (ADD)-Bureau Operated 
Schools; one Full Time Employee (FTE) to one school; (2) ADD Tribally 
Controlled Schools: one FTE to one school; and (3) ADD Navajo Schools: 
one FTE to three schools. The reorganization will locate several ERCs 
in new locations closer to schools to more effectively serve all BIE 
students. The ERCs will be staffed by employees who are currently in 
Albuquerque. The focus of reform is looking at the total BIE structure 
being closer to the schools and not just a line office with no 
services.
---------------------------------------------------------------------------
    \1\ The term, adequate yearly progress was deleted by P.L. 114-95, 
the Every Student Succeeds Act, signed into law, December 10, 2015.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                       Charles ``Monty'' Roessel
    Question 1. I understand that the Navajo Nation is interested in 
being a Tribal Education Agency for the entire Nation. Wouldn't this 
result in some of the Navajo autonomous school boards losing their 
autonomy?
    Answer. The United States has a government-to-government 
relationship with the Navajo Nation and a deep respect for principles 
of tribal self-governance. In Part B of Title XI of the Education 
Amendments of 1978 (25 U.S.C. 2001 et seq.), the various legislative 
and technical amendments since 1978, and the annual appropriations 
process, Congress has repeatedly stated that it is the policy of the 
United States to fulfill the Federal Government's unique and continuing 
trust relationship with, and responsibility to, the Indian people for 
the education of Indian children and for the operation and financial 
support of the Bureau of Indian Affairs-funded school system to work in 
full cooperation with tribes. Tribal nations and the United States 
share the same goal: to provide education of the highest quality and 
provide for the basic elementary and secondary educational needs of 
Indian children, including meeting the unique educational and cultural 
needs of those children.
    The tribally operated schools on the Navajo Reservation operate as 
autonomous schools only by authorization of the Navajo Nation. The 
Navajo Nation has the authority, under existing tribal legislation, to 
withdraw the authorization, and through the tribal authority provided 
through Part B of Title XI of the Education Amendments of 1978 (25 
U.S.C. 2001 et seq.), as amended. The Navajo Nation, in its 
interactions with individual schools, must consider the well-being of 
all its students and community members, particularly when the 
autonomous school boards are not providing the sound governance 
required for a school to be a success, and are not providing the high-
quality academic programs and services that students need to be 
successful in the 21st century.
    The enactment and implementation of Title V of Public Law 100-297 
in 1988 was an important milestone in the tribal control of Bureau-
funded schools. But the success of the schools controlled by tribal 
organizations has been limited and has not met the full expectations of 
both Public Law 93-638, the Indian Self-Determination and Education 
Assistance Act, which allows a tribe to perform federal functions under 
contract to the Federal Government and receive funding for that role, 
and Public Law 100-297, the Tribally Controlled Grant Schools Act, 
which allows a tribe to take over the responsibilities for the 
operation of a school under what is called a P.L. 100-297 grant. Many 
tribes have limited input in the operation and control of their schools 
after they approve a tribal organization, independent of the tribe, to 
operate a school. One outcome is that tribal organizations have not 
coordinated well with neighboring schools on standards, procedures, 
policies, curricula, and instructional programs. Lack of coordination 
produces inequities and has a negative impact on students who may move 
between schools during the academic year.
    We defer to the Navajo Nation on the organization of education on 
the Navajo Reservation. That said, we seek to provide options to tribal 
nations to improve education. The desire of the Navajo Nation, as well 
as other tribes, to function as a Tribal Education Department is an 
important step in the Navajo Nation assuming greater control of the 66 
Bureau-funded schools on or near the Navajo Reservation. The Navajo 
Nation is exploring various options to strengthen oversight, 
governance, and control of its schools. Although the final decision has 
not been made by the Navajo Nation on the oversight, governance, and 
control of its schools, the Bureau is comfortable with, and will 
support, the Navajo Nation's decision based on the stated policy of the 
Education Amendments of 1978, as amended.
    The Bureau believes that greater coordination in the operation of 
its schools will strengthen the capacity of tribes to operate education 
programs and high-performing schools. It will also improve student 
performance, improve the quality of the instructional program, and 
develop an education system with uniform standards, policies, and 
procedures that better meet the needs of students and tribal 
communities. Tribal control of schools will allow tribes to implement 
innovative programs and curricula for their students, including an 
emphasis on their history, language, and culture. As a result, tribal 
communities are likely to be more invested in their schools.

    Question 1a. How will BIE manage this conflict as you make 
decisions on how to move forward with the proposed reorganization?
    Answer. The future of Navajo education is a matter for the Navajo 
Nation to decide. The United States has not had a good historical 
record when it has used paternalistic approaches directed by federal 
entities, whether Congress or the Executive Branch. The question of how 
the Navajo Nation will operate its school system should be debated 
within the Navajo Nation. The BIE's role is to support whatever 
decision is made by the tribal government, provided that it is 
consistent with the law. The BIE Director and his senior managers 
hosted a tribal consultation session on April 27, 2015, which was open 
to the public, and have had formal and informal meetings, seven 
stakeholder conference calls, and eight webinars to provide information 
to the Navajo Nation, tribal and education department leaders, 
community members, and both tribally operated and BIE school board 
members and school staff. These activities were to collect information 
and input on the restructuring of BIE, including the feasibility of 
tribes operating all of the Bureau-funded schools on their 
reservations, and the strengthening of tribal departments of education. 
Through these efforts, the BIE has sought to become more supportive of 
educational endeavors on the Navajo Reservation.
    In addition, BIE has provided the Navajo Nation $400,000 through a 
feasibility grant and a ``Sovereignty in Indian Education'' (SIE) 
Enhancement initiative. These funds allowed the Navajo Nation to hold 
numerous listening sessions with school boards, school staff, and 
community members to determine the feasibility of operating the Navajo 
Bureau-funded schools, and other considerations to strengthen the 
Navajo Nation Department of Education and update tribal education 
codes, policies, and procedures.

    Question 1b. Do you have an opinion from the Department's 
Solicitor's office on the authority of the BIE to enter into its 
current restructuring? Is there any conflict between PL-297 and the 
proposed changes to increase tribal authority?
    Answer. The answer to the first question is ``yes.'' The 
Department's Office of the Solicitor has reviewed the restructuring 
proposal and opined that the Tribally Controlled Schools Act does not 
prevent the restructuring. The Act envisions tribal governments as 
authorizing bodies and informed partners in the management of tribally 
controlled schools when not directly operating tribal schools 
themselves. The answer to the second question is ``no.''
    The Solicitor's office has been actively involved with BIE's 
restructuring planning and implementation process, and with BIE's 
outreach to tribes to discuss the restructuring of the Bureau, 
including the transformation of the BIE from a direct service provider 
and school operator to a technical assistance provider to tribally 
operated schools.

    Question 2. I have great respect for the tradition of Tribal 
Consultation, and its importance for respecting tribal sovereignty. I 
understand you are using a range of tools to garner reaction from 
tribes for the BIE reorganization plan.What changes have you made to 
the proposed reorganization plan based on consultation received from 
tribal leaders?
    Answer. Both the development and implementation of the BIE 
reorganization have evolved as tribal consultation has proceeded. In 
response to concerns in the Great Plains, for example, the 
reorganization was modified to establish an Education Resource Center 
(ERC) in Kyle, South Dakota and create an Education Program 
Administrator at Pine Ridge to oversee Cheyenne Eagle Butte, Flandreau, 
and Pine Ridge schools. In several areas, a smaller-scale support 
center was included as part of the proposed reorganization plan. An 
additional change came following input from the tribes in Oklahoma 
during the tribal consultation sessions in April and May of 2014.
    In addition, during the tribal consultations, we heard that most of 
the tribal nations in Oklahoma are interested in programs supporting 
Native youth attending public schools (there are only three BIE-funded 
schools in that state). Because of this concern, we have proposed to 
transform the only regional office in Oklahoma to a national ``Johnson 
O'Malley (JOM) Center.'' The new JOM Center will provide support and 
technical assistance to all tribes receiving JOM funds.

    Question 2a. My constituents tell me they want to hear more about 
how the BIE expects this new reorganization ``to be better able to 
provide more resources and support to Indian students at the local 
level.'' How will you be doing that?
    Answer. Our reorganization is designed with the best interests of 
the student and the success of their schools in mind. The 15 Education 
Resource Centers (ERCs) will address a key recommendation of the 
Blueprint for Reform to provide improved technical assistance and more 
comprehensive services to schools. The ERCs will be geographically 
positioned close to schools and staffed with School Solutions Teams to 
provide customized support to meet the unique needs of each school. 
Instead of issuing mandates to schools, these teams will ensure that 
principals and teachers have the resources and support they need to 
operate high achieving schools. The ERCs will leverage expertise from 
other parts of the organization, including school operations, to offer 
a variety of technical skill supports in the field. With support from 
BIE Education Program Enhancement funds, the ERCs will assist schools 
in their improvement efforts by making available to schools data-
supported ``best practice'' models in professional development, 
curriculum development, instruction, intervention strategies, school 
leadership, and tribal education support.

    Question 2b. I understand that part of the proposed restructuring 
will be the closing of line offices. How have all tribes been notified 
of these closures?
    Answer. The BIE is transforming the current 22 Education Line 
Offices reporting to the Associate Deputy Directors into 15 Education 
Resource Centers (ERCs), four facility support centers, three technical 
support centers, and one National Johnson O'Malley Center. The ERCs 
address a key recommendation of the Blueprint for Reform to provide 
improved technical assistance and more comprehensive services to 
schools. The ERCs will be geographically positioned close to schools 
and staffed with School Solutions Teams to provide customized support 
to meet the unique needs of each school. Instead of issuing mandates to 
schools, these teams will ensure that principals and teachers possess 
the resources and support they need to operate high achieving schools. 
The ERCs will leverage expertise from other parts of the organization, 
including school operations, to offer a variety of technical skill 
supports in the field. With support from BIE Education Program 
Enhancement funds, the ERCs will assist schools in their improvement 
efforts by making available to schools data-supported ``best practice'' 
models in professional development, curriculum development, 
instruction, intervention strategies, school leadership, and tribal 
education support.Information on the transformation is shared during 
Tribal Consultation meetings, during monthly stakeholder calls, through 
webinars in partnership with the National Indian Education Association 
and the National Congress of American Indians, and through individual 
meetings with tribal leaders, tribal councils and tribal community 
members. Information on these consultation sessions can be found at the 
following link on the bie.edu website: http://www.bie.edu/cs/groups/
xbie/documents/document/idc1-031687.pdf.

    Question 3. Understandably, tribes are concerned about the 
financial impact of operating schools previously run by the BIE. 
Currently, what are the per pupil costs at BIE operated and BIE grant 
schools, and what is the breakdown of contributing factors for those 
costs?
    Answer. The BIE does not have access to cost information from all 
schools. However, most BIE-appropriated and Department of Education 
funds received by the BIE are distributed to BIE-funded schools by 
formulas based on student count variables or characteristics of each 
school. For School Year 2015-2016, the average Indian School 
Equalization Program (ISEP) funding was $9,280 per student; the average 
BIE-appropriated dollars per student, including ISEP, was $15,386; and 
the average for all funds was $20,153. The $20,153 per student was not 
adjusted for the funding generated by the residential students.

    Question 3a. When tribes agree to take control of their schools now 
run by BIE, how can they compensate for the lack of resources and 
staff, insufficient infrastructure (buildings, technology, and 
broadband) and needed wraparound services to achieve academic 
excellence?
    Answer. Since most BIE-appropriated and Department of Education 
funds received by the BIE are distributed to BIE-funded schools by 
formulas based on student count variables or characteristics of each 
individual school, individual schools would receive the same dollar 
amount per program regardless of whether they were BIE-operated or 
tribally operated. In either case, the school determines the number and 
type of staff needed based on available funds. When a school transfers 
from BIE-operated to tribally operated, the school receives the same 
dollar amount for facilities, operations, and maintenance, and has the 
same eligibility for facilities repair funds. However, a school gains 
more flexibility and will be more accountable to the community, giving 
the school the opportunity to better serve the community.
    BIE funds the broadcast and Internet broadband for all of its 
schools from funds appropriated for Education Information Technology 
(IT) services, and the broadband at individual schools expands as 
school needs change and funds become available. The funding increase 
provided in FY 2016 will increase the broadband and hardware to better 
meet the needs for 21st century schools, especially in remote locations 
where broadband access benefits are not available to the local 
community except at BIE-funded schools.
    The BIE will continue to work with other Federal, State, and 
private agencies to establish wraparound services at all BIE-funded 
schools. BIE continues to work with the Indian Health Service to 
increase the availability of health care services at or near BIE-funded 
schools.

    Question 3b. What resources will BIE make available to them, and 
will it be sufficient and sustainable?
    Answer. BIE routinely provides technical assistance as tribes seek 
to convert to tribal control. Moreover, the BIE Sovereignty in Indian 
Education (SIE) Enhancement Initiative and the Tribal Education 
Department (TED) grants provide funding to build the capacity of Tribal 
Education Departments. On August 5, 2014, the BIE awarded $1 million to 
five tribes under the SIE: Gila River Indian Community, Navajo Nation, 
Tohono O'odham Nation, Standing Rock Sioux Tribe, and the Turtle 
Mountain Band of Chippewa Indians. In November 2015, the BIE awarded 
ten tribes under the TED Grant: Pueblo of Acoma, Santa Clara Pueblo, 
Navajo Nation, Hopi Tribe, Rosebud Sioux Tribe, Standing Rock Sioux 
Tribe, Mississippi Band of Choctaw Indians, Sault Ste. Marie Tribe of 
Chippewa Indians, Muscogee Creek Nation Tribe, and Leech Lake Band of 
Ojibwe. These funds are intended to support tribes to build the 
capacity of their educational departments. The Oglala Sioux Tribe opted 
not to accept the SIE awards and were provided a full year to resubmit 
a new budget narrative. Unfortunately, the Tribe never resubmitted and 
funds were reallocated to fund technical assistance programs for 
Education Line Offices being contracted by five tribes. These grants 
were announced for second-year funding in August 2015.
    In addition to providing grants to tribes, the BIE is taking the 
necessary steps to ensure that employees are trained in how to provide 
technical assistance. BIE is working across the agency to ensure that 
BIE will be a capacity-builder and service-provider to tribes. Monthly 
BIE calls provide an opportunity for updates with stakeholders and 
offer an open forum for questions and answers. There are also BIE 
training webinars announced by newsletter and mass emails through 
standard BIE communications protocols.

    Question 4. What is the risk of New Mexico staff losing their jobs 
if they are not able to relocate or retrain for the new roles?
    Answer. Employees are the lifeblood of any institution. It is BIE's 
intention to work with current employees to ensure that they have a 
place within the new BIE. Every effort will be made to ensure a smooth 
transition. The BIE has sought to provide all BIE staff with webinars 
on developing resumes and a walkthrough of how to apply for positions 
on USA Jobs, which are specific to job announcements. In addition, job 
announcements are shared across the BIE, and managers are encouraged to 
share the job listings with staff. New positions are being advertised 
and individuals are encouraged to submit applications for these 
positions. Training and professional development go hand in hand in the 
BIE and employees will be provided necessary training through webinars.

    Question 4a. If fully implemented, is it true that Albuquerque 
would be at risk for losing 35 jobs?
    Answer. No. Currently, the Albuquerque Regional Office supports a 
staffing level of 44 positions and includes the following functions: 
(1) Associate Deputy Director West; (2) Albuquerque Education Line 
Office; (3) Division of Performance and Accountability; and (4) School 
Operations staff.
    Under the proposed reorganization, the Albuquerque regional office 
will undergo several changes, but it will continue to support 44 
positions, covering a variety of important functions:

        1.  An Office of the Associate Deputy Director for BIE-Operated 
        Schools and an Education Resource Center (ERC) reporting to the 
        Associate Deputy Director;

        2.  An Office of the Associate Deputy Director for Tribally 
        Controlled Schools (3 positions) and an ERC reporting to the 
        ADD; and

        3.  Staff supporting the Division of School Operations.

    The most significant change will be within the Division of 
Performance and Accountability (DPA), for which the following changes 
are proposed:

        1.  The reassignment of the Associate Deputy Director for DPA 
        to Washington, DC;

        2.  The reassignment of a majority of the DPA staff to ERCs 
        around the country; and

        3.  The reassignment of DPA's data unit to Washington, DC.

    Question 4b. What is the potential economic impact to New Mexico of 
fully implementing the proposed BIE reorganization plan?
    Answer. The number of federal jobs will remain the same and we 
anticipate that Indian education in New Mexico will improve. This will 
produce a more successful workforce in the State. While we cannot 
quantify with certainty the overall economic impact, we believe that it 
will be positive.

    Question 5. Thank you for your assistance with getting the Pine 
Hill Elementary School (Bldg. 803) prepared for occupancy. I understand 
that significant problems on the campus remain, including connecting 
all of the buildings to the fire alarm system and fencing the campus to 
protect it from uninvited guests. Do I have your commitment that BIE 
will continue to work with the Pine Hill schools to address the 
security and life safety features needed to create the appropriate 
learning environment for the students and staff?
    Answer. The Bureau of Indian Affairs Southwest Region Facilities 
Manager confirmed that building 803 and the campus-wide fire alarm 
system are complete. Yes, we are committed to working with the Ramah 
community in addressing other identified security and life-safety 
issues.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Al Franken to 
                       Charles ``Monty'' Roessel
    Question 1. From 2007 to 2012, the Mille Lacs Band of Ojibwe 
operated its Pine Grove School as a charter school, but then outside 
assistance for the school ended. Without Pine Grove, children in the 
Band's Lake Lena community must be bused to the Band's Nay Ah Shing 
School 80 miles away or lose access to culturally appropriate 
education.
    Last year's appropriations bill included language allowing BIE to 
waive the prohibition on funding satellite schools in limited 
circumstances. The Band has requested such a waiver so it can reopen 
Pine Grove as a satellite of the BIE-supported Nay Ah Shing School. And 
the Band would like to see this waiver approved in time for about two 
dozen kids in Lake Lena to start classes at Pine Grove in the 2015-2016 
school year.
    Can you assure me that BIE will review the Mille Lacs Band's waiver 
request in a timely manner?
    Answer. The BIE director traveled to meet with Mille Lacs Band of 
Ojibwe Indians Chief Executive Melanie Benjamin and agreed to the new 
satellite school. The BIE has worked with Pine Grove to identify 
students who are eligible for the Indian School Equalization Program 
(ISEP) funding but, as of this writing, the students listed by Pine 
Grove do not meet the ISEP eligibility requirements and are not 
eligible for ISEP funds. The BIE continues to work with Pine Grove to 
identify eligible students who will generate funds for Nay Ah Shing to 
provide education services to the Pine Grove students.

                                  [all]
</pre></body></html>
